<html>
<title> - H.R. 2801, IZEMBEK AND ALASKA PENINSULA REFUGE AND WILDERNESS ENHANCEMENT AND KING COVE SAFE ACCESS ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
    H.R. 2801, IZEMBEK AND ALASKA PENINSULA REFUGE AND WILDERNESS 
               ENHANCEMENT AND KING COVE SAFE ACCESS ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, October 31, 2007

                               __________

                           Serial No. 110-51

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

38-772 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                



                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, October 31, 2007......................     1

Statement of Members:
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1
        Prepared statement of....................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     2
        Prepared statement of....................................     4

Statement of Witnesses:
    Hall, H. Dale, Director, U.S. Fish and Wildlife Service, U.S. 
      Department of the Interior.................................     5
        Prepared statement of....................................     7
    Mack, Hon. Stanley, Mayor, Aleutians East Borough............    12
        Prepared statement of....................................    14
    Mylius, Dick, Director, Division of Mining, Land and Water, 
      Alaska Department of Natural Resources.....................     9
        Prepared statement of....................................    11
    Raskin, David, President, Friends of Alaska National Wildlife 
      Refuges....................................................    19
        Prepared statement of....................................    22
    Trumble, Della, President, King Cove Corporation.............    16
        Prepared statement of....................................    18
    Whittington-Evans, Nicole, Assistant Regional Director, The 
      Wilderness Society.........................................    26
        Prepared statement of....................................    28


   LEGISLATIVE HEARING ON H.R. 2801, TO PROVIDE FOR THE INCLUSION OF 
 CERTAIN NON-FEDERAL LAND IN THE IZEMBEK AND ALASKA PENINSULA WILDLIFE 
REFUGES AND WILDERNESS IN THE STATE OF ALASKA AND FOR THE GRANTING OF A 
  RIGHT-OF-WAY FOR SAFE AND RELIABLE ACCESS FOR THE NATIVE VILLAGE OF 
    KING COVE, ALASKA, AND FOR OTHER PURPOSES. (IZEMBEK AND ALASKA 
 PENINSULA REFUGE AND WILDERNESS ENHANCEMENT AND KING COVE SAFE ACCESS 
                                  ACT)

                              ----------                              


                      Wednesday, October 31, 2007

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 2:03 p.m. in Room 
1324, Longworth House Office Building, Honorable Nick J. 
Rahall, II [Chairman of the Committee] presiding.
    Present: Representatives Rahall, Young, Kildee, 
Christensen, Napolitano, Grijalva, Bordallo, Costa, Inslee, 
Herseth Sandlin, Gilchrest and Bishop.

STATEMENT OF THE HONORABLE NICK J. RAHALL, II, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources will 
begin.
    Today's hearing is on H.R. 2801, legislation introduced by 
the gentleman from Alaska, the Committee's Ranking Member and 
my good friend, Don Young. In essence, the bill provides for a 
land exchange between the U.S. Fish and Wildlife Service, the 
State of Alaska and the King Cove Corporation in order to allow 
for a road to be constructed through a national wildlife refuge 
and wilderness area.
    Lands acquired from the state and the corporation would be 
added to refuge wilderness under the legislation. The road 
would be for the purpose of providing access between the 
communities of King Cove and Cold Bay.
    H.R. 2801 revisits a controversy which has received 
congressional attention in the past. In 1998, during the 
Clinton Administration, Congress approved $37.5 million in an 
effort to provide a hovercraft connection and other health and 
safety enhancements as an alternative to construction of the 
road between King Cove and Cold Bay.
    This included $20 million for a hovercraft, including 
construction of a road, docks and marine transport facilities, 
$15 million to improve the airstrip in King Cove, and $2.5 
million for equipment and telemedicine improvements at the King 
Cove Health Clinic.
    In today's hearing, the Committee will get an update on how 
the Clinton Administration's 1998 road alternative has been 
implemented and consider the revised approach set forth in H.R. 
2801.
    At this point I will recognize the Ranking Minority Member, 
Mr. Young, for any opening comments he wishes to make.
    [The prepared statement of Mr. Rahall follows:]

       Statement of The Honorable Nick J. Rahall, II, Chairman, 
                     Committee on Natural Resources

    Today's hearing is on H.R. 2801, legislation introduced by the 
gentleman from Alaska, the committee Ranking Member, Don Young.
    In essence, the bill provides for a land exchange between the U.S. 
Fish and Wildlife Service, the State of Alaska, and the King Cove 
Corporation in order to allow for a road to be constructed through a 
national wildlife refuge and wilderness area. Lands acquired from the 
state and the corporation would be added to refuge wilderness under the 
legislation. The road would be for the purpose of providing access 
between the communities of King Cove and Cold Bay.
    H.R. 2801 revisits a controversy which has received congressional 
attention in the past. In 1998, during the Clinton Administration, 
Congress approved $37.5 million in an effort to provide a hovercraft 
connection and other health and safety enhancements as an alternative 
to construction of the road between King Cove and Cold Bay. This 
included $20 million for a hovercraft, including construction of a 
road, docks and marine transport facilities, $15 million to improve the 
airstrip in King Cove, and $2.5 million for equipment and telemedicine 
improvements at the King Cove Health Clinic.
    In today's hearing, the committee will get an update on how the 
Clinton Administration's 1998 road alternative has been implemented and 
consider the revised approach set forth in H.R. 2801.
                                 ______
                                 

   STATEMENT OF THE HONORABLE DON YOUNG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Chairman. I am grateful that you 
scheduled this hearing today on H.R. 2801. This gives the 
Committee a chance to hear about developments on the issue we 
first debated in 1997 and 1998.
    Mr. Chairman, I have to say that the money that you 
mentioned as being spent for hovercraft and for clinics and 
improvements to the airport are well and good, but it doesn't 
solve the basic problem.
    It was at the insistence of Senator Stevens and myself that 
that money be spent because we knew the needs in King Cove and 
the people who live there, and we did not think even at that 
time, because of weather conditions, that they would be able to 
meet the necessities of King Cove and the population that lives 
there.
    As you know, Mr. Chairman, it is a native village. King 
Cove is located in a remote corner of the world. Its 
transportation options are limited to riding a boat, a 
hovercraft, on frequently rough waters and flying in an 
airplane in and out of a mountain valley that is plagued by 
strong crosswinds and persistent fog.
    They are seeking access to an all-weather airport, a 10,000 
foot runway and 6,500 cross-runway just 25 miles away. The 
problem is that a designated wilderness area of the Izembek 
National Wildlife Refuge stands in the way.
    I will not say that conserving Izembek's natural resources 
is unimportant. You won't hear anyone in King Cove say that 
Izembek should be sacrificed for a greater good. They subsist 
on the fish and wildlife affected by a road, and they will be 
the last to cause them harm.
    I believe, Mr. Chairman, after the hearing today you will 
know that we can have wildlife and the habitat and a road.
    I recently heard someone, and it really still bothers me, 
say those people in King Cove chose to live there, and they 
don't have any special rights of safe and reliable access. Mr. 
Chairman, I submit the King Cove people were there first, not 
the Federal government.
    People chose to live in King Cove before the Carter 
Administration and before Congress chose to make their 
aboriginal lands a wilderness area, by the way, without any 
input from the local people. King Cove's access problem stems 
from government actions, not their own. Without this Federal 
intrusion on their aboriginal lands, we wouldn't be here today.
    H.R. 2801 offers a sweetheart deal, and I say that, a 
sweetheart deal, for the government. King Cove and the State of 
Alaska will give up 61,000 acres of pristine land--let me 
stress that, Mr. Chairman; 61,000 acres of pristine land--in 
exchange for a 206-acre road corridor and a 1,600-acre Federal 
inholding that is unrelated to the road. Forty-five thousand 
acres of lands added to the refuge will be designated as 
wilderness.
    Frankly, as I have said before, I am not thrilled with this 
deal. It is a sweetheart deal for the government. I think it 
does a disservice to the King Cove people, but again that is 
their decision, and I will support that decision, which is why 
I introduced the bill.
    The bill contains terms that no other state, to the best of 
my knowledge, has ever had to comply with in order to secure 
access rights for its citizens, and this deal points to a 
disturbing trend of the Federal government, which is to extract 
more than a fair share from American citizens in return for the 
right to use a small piece of Federal land.
    There is also a double standard at play. The Fish and 
Wildlife Service has a network of roads in the Izembek Refuge 
right now, a network of roads, so on one side of the Bay the 
government employees, sport hunters and environmentalists get 
to enjoy the Cold Bay Airport and the local road system. On the 
other side of the Bay 25 miles away, people wonder how they 
will get to a hospital when the weather is bad. I believe, Mr. 
Chairman, that is just wrong.
    As I said, Mr. Chairman, this deal is very good for the 
Federal government, very good for the refuge, but I agreed to 
introduce this bill at the strong urging of my constituents in 
the East Aleutians, and with the support of Alaska's Governor 
Palin I will put aside my personal reservations about the terms 
of the deal in the interest of getting this vital, life-saving 
road built.
    It is hard for me to hear stories about the people in King 
Cove clinging to life while waiting for weather to clear. I 
really hope we can move this deal forward. With that, I look 
forward to hearing from today's witnesses.
    [The prepared statement of Mr. Young follows:]

         Statement of The Honorable Don Young, Ranking Member, 
                     Committee on Natural Resources

    Mr. Chairman, I am grateful that you scheduled a hearing today on 
my bill, H.R. 2801. This gives the Committee a chance to hear about 
developments on an issue that we first debated in 1997 and 1998.
    King Cove is a recognized Native Village located in a remote corner 
of the world. Its transportation options are limited to riding a boat 
or hovercraft on frequently rough waters, and flying an airplane in-
and-out of a mountain valley that is plagued by strong crosswinds and 
persistent fog. They're seeking access to an all-weather airport with a 
10,000-foot runway and 6,500-foot crosswind runway just 25 miles away.
    The problem is that a designated Wilderness Area of the Izembek 
National Wildlife Refuge stands in the way.
    I will not say that conserving Izembek's natural resources is 
unimportant. You won't hear anyone from King Cove say that Izembek 
should be sacrificed for a greater good. They subsist on the fish and 
wildlife affected by a road, and they would be the last to cause them 
harm.
    But we can have wildlife--and habitat--and a road.
    I recently heard someone say, ``Those people in King Cove choose to 
live there, and they don't have special rights to safe and reliable 
access.''
    I submit that King Cove was there first, not the federal 
government. People chose to live in King Cove before the Carter 
Administration and Congress chose to make their aboriginal lands a 
Wilderness Area. King Cove's access problem stems from government 
actions, not from their own. Without this federal intrusion in their 
aboriginal lands, we wouldn't be here today.
    H.R. 2801 offers a ``sweetheart deal''--for the federal government, 
that is. King Cove and the State of Alaska will give up 61,000 acres of 
pristine land in exchange for a 206-acre road corridor and a 1,600-acre 
federal inholding that is unrelated to the road. 45,000 acres of the 
lands added to the Refuge System will be designated as Wilderness.
    Frankly, I am not very thrilled with this uneven deal. I do not 
like new Wilderness designations. The bill contains terms that no other 
State, to the best of my knowledge, has ever had to comply with in 
order to secure access rights for their citizens. And this deal points 
to a disturbing trend of the federal government, which is to extract 
more than a fair share from Americans citizens in return for the right 
to use a small piece of federal lands.
    There is also a double-standard at play. The Fish and Wildlife 
Service has a network of roads in the Izembek Refuge. So on one side of 
the Bay, the government employees, sport hunters and environmentalists 
get to enjoy the Cold Bay airport and the local road system. And on the 
other side of the Bay, people wonder how they'll get to a hospital when 
the weather is bad. This isn't right.
    As I said, this deal is very good for the federal government, but I 
agreed to introduce this bill at the strong urging of my constituents 
in the East Aleutians. And with the support of Alaska's Governor Palin, 
I will put aside my personal reservations about the terms of the deal 
in the interest of getting this vital, life-saving road built.
    It's hard for me to hear stories about people in King Cove clinging 
to life while waiting for the weather to clear, and I really hope we 
can move this deal forward. With that, I look forward to hearing from 
today's witnesses.
                                 ______
                                 
    Mr. Young. Mr. Chairman, I do believe sometime we are going 
to have a short, four-minute film. If you will indulge me? Is 
that correct?
    Male Voice. Yes.
    Mr. Young. And will that be played now or when?
    Male Voice. When Stanley Mack goes.
    Mr. Young. When Stanley Mack goes. It will be played at 
that time.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Mr. Young, for your very heartfelt 
statement. It sounded very interesting. I appreciate your 
bringing this to our committee's attention, as well as many 
constituents of yours that I know are on this first panel. 
Would you like to introduce them?
    Mr. Young. I believe they will introduce themselves and 
give their recognition. I could introduce them all, but, very 
frankly, they have their roles and I believe they can best 
present their points of view in the manner in which they are 
chosen.
    The Chairman. Well, let me first welcome The Honorable Dale 
Hall, who is perhaps not a constituent of yours, but we feel is 
like a constituent of this committee. He has been here a number 
of times, and we welcome you, Director Hall, the U.S. Fish and 
Wildlife Service of the Department of Interior, back to our 
committee.
    We also have on this first panel Dick Mylius, the Director 
of the Division of Mining, Land and Water, Alaska Department of 
Natural Resources; The Honorable Stanley Mack, the Mayor of the 
Aleutians East Borough; Della Trumble, the president of King 
Cove Corporation; David Raskin, the president of Friends of 
Alaska National Wildlife Refuge; and Nicole Whittington-Evans, 
the Assistant Regional Director of The Wilderness Society.
    Dale, I guess do you want to kick it off, and then we will 
go down the list I just enumerated and each one can reintroduce 
themselves.

  STATEMENT OF H. DALE HALL, DIRECTOR, U.S. FISH AND WILDLIFE 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hall. Thank you, Mr. Chairman. It is a pleasure to be 
here again, Mr. Young, Mr. Grijalva. It is good to see you all 
again, and I do enjoy coming over here. I know that sometimes 
it doesn't feel that way, but I believe it is very helpful.
    Male Voice. You might think that.
    Mr. Hall. Yes, sir. That is why I work for the Federal 
government.
    You know, the Act that we are here to talk about today, 
H.R. 2801, would do a land transfer from the Fish and Wildlife 
Service of a little over 1,600 acres, but 206 of that is the 
real issue of discussion I think for most people. The 206 acres 
of land go through the wilderness area of Izembek National 
Wildlife Refuge.
    We also understand and the Administration appreciates the 
hardships that Mr. Young talked about a little earlier, and in 
that spirit the Administration will support H.R. 2801 and ask 
that it be amended, though, to ensure that full NEPA analysis 
is included in the process. This would allow people to fully 
see what at least at this point we believe are the values 
associated with this for the American people and for the 
wilderness system.
    I will not attempt to speak for our friends here from King 
Cove. We have met on several occasions, and they will do a much 
better job talking about the issues that they face than I will, 
but I would like to focus on what our responsibilities are, and 
those responsibilities in this case are simply to look at the 
value of the land exchange, the value for the people, both 
those that care about the wilderness system, and refuges, the 
value of the natural resource base that is there and to try and 
come up with a conclusion that is beneficial to the American 
people both today and in the future.
    The Izembek National Wildlife Refuge is a very unique 
refuge. At 300,000 acres, it is still the smallest refuge in 
Alaska, but yet with that almost all of the black brant of the 
United States live there. Taverner's Canada geese and emperor 
geese inhabit the Izembek Lagoon, and Steller's eiders, a 
listed species, lives there as well and spends their molting 
period, their flightless period, in that area.
    The land exchange, as you will probably see on maps later, 
is right at the end of the national wildlife refuge boundary 
line next to the lagoon. This area would traverse through 
there, and in exchange for that 206 acres, about a nine mile 
corridor across the refuge, the National Wildlife Refuge System 
would receive over 40,000 acres back into wilderness. That is 
about a 200:1 ratio.
    My position has been in the past and continues to be that 
wilderness areas are very important inside the National 
Wildlife Refuge System, but if the law does allow for the 
transfer and land exchange to take place in a wilderness area 
it is my belief that the bar should be high. I am not sure how 
much higher the bar could be than 200 acres for every acre 
removed.
    In addition to that, we would receive some very significant 
wetlands known as Martinson's Marsh, if I am saying that 
correctly, that I have been to and seen. I have visited the 
area myself. I have walked on the lands that we could walk on. 
I flew over the townships that would be contributed in place of 
this, and in my view as an average American going up there, not 
knowing biologically so much about Alaska, it is what I 
envisioned wilderness would look like.
    When you fly over that country, you can see the caribou 
trails. It is areas where the tundra swans nest, and these are 
areas that we will receive in exchange for the 206 acres.
    In total, we will get over 61,000 acres for the 1,600. The 
other areas, as were alluded to earlier, are on an island where 
we and the Coast Guard have some holdings that even our refuge 
manager does not believe that they are at the category of 
discussion that the 206 acres are at Izembek.
    As we go through that and look at the land exchange, I do 
want to reiterate again that our role is not whether or not 
there should be a road. Our role is, is there a fair land 
exchange taking place here for the American people? Is there a 
benefit to the wilderness system? Is there a benefit to the 
refuge system and is there a benefit to the wildlife concerned, 
and at the same time trying to understand what benefits need to 
accrue to the people that live in the area.
    There are a few things in the bill that we would like to 
see amended. There is Section 4 that talks about the lands and 
the return of lands if the road is not able to be built. Our 
concern on that is that we would be willing, if the bill were 
passed and we complete the process, to wait until all the 
permits were in place and they had all of the necessary 
requirements, but once construction begins and land exchange 
takes place we believe that is it.
    There is no land return policy as far as we are concerned 
after going through all this. That is something very serious to 
us, and I believe Section 4 creates some uncertainty there, and 
I think that that should be addressed.
    There are other technical issues in this bill, but we would 
be glad to work with the Committee or have our attorneys work 
with the Committee on balancing laws, ANCSA and ANILCA and the 
Wilderness Act and different things that are there, but all in 
all we look forward to working with you.
    If NEPA is done, you know, we have not budgeted to do that, 
and that would be something we would talk with the future with 
the Appropriations Committees about, but at this point the 
Administration supports this bill with those amendments.
    [The prepared statement of Mr. Hall follows:]

 Statement of H. Dale Hall, Director, U.S. Fish and Wildlife Service, 
                    U.S. Department of the Interior

    Chairman Rahall, Ranking Member Young, and Members of the 
Committee, I am H. Dale Hall, Director of the U.S. Fish and Wildlife 
Service (Service), and I appreciate the opportunity to testify today on 
H.R. 2801, the ``Izembek and Alaska Peninsula Refuge and Wilderness 
Enhancement and King Cove Safe Access Act.'' This Act would convey land 
from the Izembek National Wildlife Refuge to the State of Alaska for 
the purpose of constructing a road, and would convey other non-Federal 
lands to the Izembek and Alaska Maritime National Wildlife Refuges and 
designate a portion of those additions as Wilderness.
    When evaluating proposals such as the one outlined in H.R. 2801, we 
must ensure that any change in the public estate improves the 
ecological and social values available to the public. In that spirit, 
the Administration could support H.R. 2801 if it is amended to ensure 
that a full National Environmental Policy Act (NEPA) analysis of the 
proposed exchange is required, including an analysis of the impacts of 
the road through Izembek National Wildlife Refuge. The NEPA analysis 
would provide a full disclosure of the impacts and benefits of the 
exchange and allow for public input into the decision-making process. 
The Service is currently reviewing the proposal to assess the potential 
benefits, values, and costs to wildlife and wilderness areas. These 
efforts will help inform the NEPA process. Additionally, we have 
identified some technical issues in the legislation that we believe 
must be addressed.
Background
    The communities of King Cove and Cold Bay are located in the 
westernmost region of the Alaska Peninsula. These communities are 
accessible only by sea or air. King Cove and Cold Bay are separated by 
less than twenty miles, but there is no road between the two 
communities. For many years the residents of the Aleutians East Borough 
and King Cove have advocated building a road between King Cove and Cold 
Bay, across the Izembek Refuge and Wilderness for both transportation 
accessibility and safety. Until last year transportation options 
between the communities were limited to private boats and commuter air 
service. Residents believe that the area's stormy weather makes these 
modes of transport unsafe, especially during medical emergencies when 
rapid transport to Anchorage hospitals requires reaching Cold Bay's 
all-weather airport.
    In 1997, legislation was introduced in, but did not pass, the House 
and Senate that would have resulted in construction of a road through 
the Izembek Refuge and Wilderness to address critical health and safety 
needs of the King Cove community. To address these needs, Congress 
appropriated $37.5 million for a compromise in the Fiscal Year 1999 
Consolidated Appropriations Bill that addressed the critical health and 
safety needs while avoiding building a road through the Izembek Refuge 
and Wilderness. Specifically, $20 million was provided to construct a 
road-hovercraft link between King Cove and Cold Bay, $15 million was 
for improvements to the King Cove airstrip, and $2.5 million was for a 
major renovation of the King Cove health clinic. The State of Alaska 
determined that King Cove's location in a valley prevented improvements 
to the airport to accommodate jets. Roughly $9 million of the funds 
were then spent on a hovercraft and additional funds were directed to 
the road.
    In 2006, the Aleutians East Borough constructed a one-lane gravel 
road from the King Cove airstrip to a temporary hovercraft dock four 
miles away where a hovercraft now carries up to 49 passengers, an 
ambulance, and cargo to and from Cold Bay. An additional 14 miles of 
road beyond the temporary hovercraft dock have been completed or are 
under construction. The road does not extend into the Izembek Refuge or 
Wilderness, a requirement of the 1999 legislation providing the funding 
for the road. This marine-road system was the preferred alternative 
evaluated in a 2003 Final Environmental Impact Statement completed by 
the Army Corps of Engineers. That FEIS, which contained a partial 
analysis of a road only alternative, concluded that impact intensities 
for the road only alternative varied from negligible to significant.
    After six months of training and practice runs, on August 7, 2007, 
the hovercraft known as the Suna-X began its commercial service runs 
between King Cove and Cold Bay. King Cove residents, however, continue 
to seek a road linking their community with Cold Bay due to concerns 
about the reliability of the hovercraft in severe weather and 
uncertainty about future funding for the operational costs associated 
with the hovercraft.
    The Administration recognizes the legitimate needs of Alaska 
residents to have access to medical, dental, and other health care. At 
the same time, we must also fulfill our obligation to the American 
public to ensure that any decisions we make regarding lands held, and 
resources managed, in the public trust are decided in the best 
interests of the American public. I have personally visited Izembek 
Refuge and its significant wildlife values, and have flown over the 
areas being proposed for conveyance; I have met with the residents of 
King Cove and Cold Bay and discussed this issue with them.
Izembek National Wildlife Refuge
    At approximately 315,000 acres, Izembek National Wildlife Refuge is 
the smallest and one of the most ecologically unique of Alaska's 
refuges. Most of the Refuge, about 300,000 acres, was designated as 
Wilderness in 1980 under the Alaska National Interest Lands 
Conservation Act. Izembek is internationally renowned for having some 
of the most striking wildlife diversity and wilderness values in the 
northern hemisphere.
    At the heart of the Refuge is the 150-square mile Izembek Lagoon. 
The lagoon and its associated state-owned tidal lands have been 
protected by the State of Alaska since 1960 as the Izembek State Game 
Refuge. Here, shallow, brackish water covers one of the world's largest 
beds of eelgrass, creating a rich feeding and resting area for hundreds 
of thousands of waterfowl. Virtually the entire world's population of 
Pacific black brant, Taverner's Canada goose, and emperor goose inhabit 
the lagoon each fall. Steller's eiders, a species listed as threatened 
under the Endangered Species Act, molt and winter in Izembek and 
Kinzarof Lagoons.
    In addition, the corridor between Izembek and Kinzarof Lagoons, 
through which the road proposed by this legislation would extend, is 
heavily used as a migration route and winter habitat for the Southern 
Alaska Peninsula caribou herd. Steller's eiders and sea otters, listed 
as threatened species, Pacific black brant, emperor geese and harlequin 
ducks use Izembek and Kinzarof Lagoons extensively.
    To date, the Department of the Interior and the Service have 
opposed proposals to build a road through the Izembek Refuge and 
Wilderness because of the impact on wilderness values and biological 
resources within the refuge. Over the last year and a half the Service 
has met numerous times with representatives of the State of Alaska, the 
Aleutians East Borough, and the King Cove Corporation to discuss 
various interests in lands that now comprise the acreage described in 
H.R. 2801. The bill offers more than 61,000 acres in exchange for 1,600 
acres of National Wildlife Refuge lands. Of that, more than 41,000 
acres would be exchanged to make up for 206 acres of wilderness lands. 
These proposals would offer approximately 38 acres for every acre of 
wetlands and wildlife habitat, and over 200 acres for every acre of 
wilderness exchanged.
Technical Considerations
    We have reviewed H.R. 2801 and identified a number of technical 
provisions we believe warrant further attention from the Committee as 
it considers this bill. For example, we encourage the Committee to 
review and amend the bill to remedy legal deficiencies or conflicts 
with established federal land laws such as sections 22(g) and 22(i) of 
the Alaska Native Claims Settlement Act and the wilderness withdrawal 
provisions of the Alaska National Interest Lands Conservation Act. 
Additionally, we note the need for a number of technical corrections 
concerning characterizations of ownership and management status of 
lands in the vicinity of the proposed road corridor, as well as various 
acreage figures provided in the bill. We would also be glad to provide 
you with more information on the lengthy and inclusive public 
involvement process leading to the 1980 designation of Wilderness 
within the Izembek National Wildlife Refuge.
    Moreover, we have significant concerns about Section 4 of the bill, 
which would provide for immediate reconveyance of the 61,723 acres of 
non-federal lands back to non-federal ownership if a court injunction 
prohibits construction of the road or the State or King Cove 
Corporation determine that the road cannot be feasibly constructed or 
maintained. As written, this provision shifts the risks of the road 
project largely to the public trust. In the event of this reconveyance 
there is no provision for a similar reconveyance of the road corridor 
back to federal ownership, nor is there provision for mitigation or 
rehabilitation of lands damaged by incomplete construction activities. 
Additionally, we are concerned about the timeline for which the 
Secretary must complete a cooperative planning process; we need to 
better understand the compatibility and construction authorization 
provisions of the legislation; and treatment of new and existing King 
Cove Corporation roads provisions. We hope our continuing review will 
assist in this understanding.
    We are happy to meet with your staff to discuss these issues in 
further detail.
Conclusion
    In conclusion, I look forward to working with you as you move 
forward on this important issue. The Administration could support 
passage of this legislation if it were amended to ensure a full NEPA 
analysis on the exchange. We have also identified a number of technical 
changes and issues with the bill that we would like to work with you 
on, as well. I appreciate the opportunity to be here today and am happy 
to answer any questions you may have.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Mylius?

 STATEMENT OF DICK MYLIUS, DIRECTOR, DIVISION OF MINING, LAND 
       AND WATER, ALASKA DEPARTMENT OF NATURAL RESOURCES

    Mr. Mylius. Good afternoon, Representative Rahall and 
Members of the Committee, including Congressman Young. My name 
is Dick Mylius. I am here on behalf of the State of Alaska. I 
am the Director of the Department of Natural Resources, 
Division of Mining, Land and Water.
    We thank you for the opportunity to speak to you this 
afternoon in support of H.R. 2801, legislation that would 
authorize the land exchange between the State of Alaska, the 
U.S. Fish and Wildlife Service, and King Cove Corporation to 
secure road access between the Alaskan communities of King Cove 
and Cold Bay.
    These communities are located on the Alaska Peninsula and 
are accessible only by air and water. A short overland link 
between these communities would provide residents of King Cove 
with safe, dependable and economic all-weather access to the 
airport at Cold Bay. The need for this road link has been 
identified in land and transportation plans for at least 25 
years, including the Alaska Department of Transportation's 
Southwest Alaska Transportation Plan in 2004.
    This overland link is necessary because both air and water 
access to King Cove is treacherous in the frequent stormy water 
so common to the Lower Alaska Peninsula. Cold Bay has a much 
larger, safer airport, and the residents of King Cove need 
better access to that facility for health and safety, including 
for emergency medical evacuation.
    A combination road and hovercraft system established under 
the King Cove Health and Safety Act passed by Congress several 
years ago has not safely nor efficiently resolved access 
problems.
    The land exchange would add valuable and significant 
acreage to the Izembek and Alaska Peninsula National Wildlife 
Refuges. Much of the land that would be added to the refuges is 
currently owned by the State of Alaska. Specifically the State 
of Alaska is offering 43,093 acres or all of the state-owned 
land within two townships located northeast of Izembek Refuge 
in exchange for a 206-acre easement dedicated to the State of 
Alaska through the Izembek National Wildlife Refuge and 
Wilderness.
    The undeveloped land that the state is offering is 
surrounded on three sides by refuge lands and is habitat for 
brown bears and caribou. The state land includes the lower 
portion of the Cathedral River, which drains the western flanks 
of Pavlof Volcano, one of the most active volcanoes in Alaska. 
It is de facto wilderness land. This land was included in a 
recent state oil and gas lease sale, although no bids were 
received on these tracts.
    The 7,900 acres being offered to the Izembek Refuge by King 
Cove Corporation includes valuable waterfall habitat that 
straddles Kinzarof Lagoon at the head of Cold Bay. This land is 
an inholding within the existing Izembek Wilderness Area.
    The road easement that the state would acquire will run 
approximately 13 miles through the Izembek National Wildlife 
Refuge. More than half of this road already exists as primitive 
roads that were originally built during World War II. The total 
length of new road that is through the wilderness area is only 
6.3 miles.
    The combined offers from the State of Alaska and King Cove 
Corporation would immediately add 51,000 acres to the Izembek 
and Alaska Peninsula National Wildlife Refuges. All of the 
state land that is being offered in this exchange would be 
designated wilderness by this legislation. The state would 
acquire approximately 206 acres and encompass the road.
    The state would also acquire a 1,600-acre Federal inholding 
on Sitkinak Island, which is a predominantly state-owned island 
of land located south of Kodiak Island.
    The State of Alaska recognizes the unique value of Izembek 
National Wildlife Refuge. In 1972, the Alaska legislature set 
aside the state-owned land within Izembek Lagoon and adjacent 
offshore lands as a state game refuge. These state lands 
contain the eel grass beds that are the very heart of the 
Izembek Refuge.
    As part of this proposal, the state would add another 4,000 
acres of state-owned lands in Kinzarof Lagoon at the head of 
Cold Bay to that state game refuge. The exchange will require 
approval by our state legislature as the state lands quite 
likely have unequal, but greater, fair market value than the 
Federal lands being exchanged.
    The state is well aware of concerns expressed by various 
groups who are opposed to this legislation. Some are concerned 
about the precedent set by building a road through a wilderness 
area, yet when the Alaska National Interest Lands Conservation 
Act was passed in 1980, Congress specifically recognized that 
transportation facilities may be needed across the 58 million 
acres of Federal wilderness lands in Alaska.
    The Alaska Lands Act requires congressional approval for 
such transportation routes through wilderness, which is why we 
are before this committee today. There are also concerns about 
increased public access to the refuge wilderness.
    The refuge and the wilderness area are already accessible 
from Cold Bay by existing roads. Through planning and 
enforcement of existing refuge regulations, the impact of the 
limited number of new users from King Cove can be mitigated.
    In summary, the State of Alaska supports this legislation 
and stands ready to commit over 43,000 acres of state land to 
the National Wildlife Refuge and Wilderness System. We urge the 
Committee to approve this bill, and I thank you for the 
opportunity to speak to you about this legislation.
    [The prepared statement of Mr. Mylius follows:]

   Statement of Dick Mylius, Director, Alaska Department of Natural 
              Resources Division of Mining, Land and Water

    Good Afternoon Chairman Rahall, Ranking Member Congressman Young, 
and Members of the Committee on Natural Resources.
    Thank you for the opportunity to speak to you this afternoon in 
support of H.R. 2801, legislation that would authorize a land exchange 
between the State of Alaska, the U.S. Fish and Wildlife Service and 
King Cove Corporation to secure road access between the Alaskan 
communities of King Cove and Cold Bay. These communities are located on 
the Alaska Peninsula and are accessible only by air or water.
    A short overland link between these communities would provide 
residents of King Cove with safe, dependable, and economic all weather 
access to the airport at Cold Bay. The need for this road link has been 
identified in land and transportation plans for at least twenty five 
years. Most recently it was included in the Alaska Department of 
Transportation's Southwest Alaska Transportation Plan, adopted in 2004.
    This overland link is necessary because both air and water access 
to King Cove is treacherous in the frequent stormy weather so common on 
the lower Alaska Peninsula. Cold Bay has a much larger, safer airport 
and the residents of King Cove need better access to that facility for 
health and safety, including emergency medical evacuations. A 
combination road and hovercraft system, established under the King Cove 
Health and Safety Act passed by Congress several years ago, has not 
safely nor efficiently resolved access problems.
    The land exchange that is before you today is the result of 
numerous meetings between the Alaska Regional Office of the U.S. Fish 
and Wildlife Service, the City of King Cove, the Aleutians East 
Borough, King Cove Native Corporation, and the State of Alaska.
    The land exchange would add valuable and significant acreage to the 
Izembek and Alaska Peninsula National Wildlife Refuges. Much of the 
land that would be added to the refuges is currently owned by the State 
of Alaska. Specifically, the State of Alaska is offering to exchange 
43,093 acres, or all of the state owned land contained in Township 53 
South, Range 85 West, Seward Meridian and Township 54 South, Range 85 
West, Seward Meridian in exchange for an easement dedicated to the 
State of Alaska, through the Izembek National Wildlife Refuge and 
Wilderness.
    This undeveloped state land is surrounded on three sides by 
existing refuge lands and is habitat for brown bears and caribou. This 
state land includes the lower portion of the Cathedral River, which 
drains the western flanks of Pavlof Volcano, one of the most active 
volcanoes in North America. It is de facto wilderness land. This state 
land was included in a recent state oil and gas lease sale, although no 
bids were received on these tracts.
    The land being offered to the Izembek Refuge by King Cove 
Corporation includes valuable waterfowl habitat that straddles Kinzarof 
Lagoon at the head of Cold Bay. This land is an inholding within the 
existing Izembek Wilderness area, and would become part of that 
wilderness area through this legislation.
    The road easement that the state would acquire will run 
approximately 13.3 miles through the Izembek National Wildlife Refuge. 
More than half of this 13.3 mile road already exists today as primitive 
roads that were originally built during World War II. Of the 13 miles, 
only 8.9 miles is within Refuge Wilderness, and of that, 2.6 miles is 
an existing unimproved road that was built prior to Wilderness 
designation. The total length of new road through the Wilderness area 
is only 6.3 miles.
    The proposed road begins on the northeast side of Cold Bay, near 
the hovercraft terminal, and terminates on the southern boundary of the 
Izembek National Wildlife Refuge where it adjoins a state owned road 
leading into Cold Bay. The exact location of the easement will be 
determined in consultation with the U.S. Fish and Wildlife Service.
    The combined offers from the State of Alaska and the King Cove 
Corporation would significantly increase the size of the Izembek and 
Alaska Peninsula National Wildlife Refuges. Specifically, the exchange 
will result in an increase of approximately 51,000 acres of Refuge 
lands, 43,093 acres contributed by the state and 7,900 contributed by 
the King Cove Corporation. All of the state land that is being offered 
in this exchange would be designated Wilderness by this legislation.
    The state would acquire approximately 206 acres that encompass the 
road. The state would also acquire an additional 1,600 acres of federal 
land on Sitkinak Island. The 1,600-acre parcel of federal land on 
Sitkinak Island is a former Coast Guard station that is a federal 
inholding on the predominantly state-owned island. Sitkinak Island is 
located south of Kodiak Island and is used primarily for cattle 
grazing.
    The State of Alaska recognizes the unique value of the Izembek 
National Wildlife Refuge. In 1972, the Alaska Legislature set aside the 
state-owned tidelands within Izembek Lagoon and adjacent offshore state 
lands as a State Game Refuge. These state lands contain eel grass beds 
that are the very heart of Izembek Refuge.
    As part of this proposal, the state is offering to add more than 
4,000 acres of state-owned tidelands in Kinzarof Lagoon, at the head of 
Cold Bay, to the State Game Refuge.
    The exchange will require approval by our state legislature as the 
state lands are quite likely of unequal, but greater, fair market value 
that the federal lands being exchanged.
    The state is well aware of concerns expressed by various groups who 
are opposed to this legislation. Some are concerned about the precedent 
set by building a road through a Wilderness Area. Yet, when the Alaska 
National Interest Lands Conservation Act was passed in 1980, Congress 
specifically recognized that transportation facilities may be needed 
across the 58 million acres of Federal Wilderness lands in Alaska. The 
Alaska Lands Act requires Congressional approval for such 
transportation corridors through Wilderness, which is why we are before 
this committee today.
    There are also concerns about increased public access to the refuge 
wilderness. The refuge and wilderness area are already accessible from 
Cold Bay by existing local roads. Through planning and enforcement of 
existing refuge regulations, the impacts of the limited number of new 
users from King Cove can be mitigated.
    The State of Alaska supports this legislation and stands ready to 
commit over 43,000 acres of state land to the National Wildlife Refuge 
and Wilderness system. We urge the Committee to approve this bill.
    Thank you for the opportunity to speak to you about this 
legislation.
                                 ______
                                 
    The Chairman. Mayor Mack?

           STATEMENT OF THE HONORABLE STANLEY MACK, 
                 MAYOR, ALEUTIANS EAST BOROUGH

    Mr. Mack. Chairman Rahall, at this time I would like to 
present this video to give you a feel of the area that we are 
talkingabout and some of our transportation problems.
    [Whereupon, a video was shown.]
    [NOTE: The video has been retained in the Committee's 
official files.]
    The Chairman. Mayor?
    Mr. Mack. Chairman Rahall, thank you. Good afternoon. Thank 
you for allowing us to watch that video as part of this 
testimony.
    Congressman Young and other Members of the Committee, my 
name is Stanley Mack, and I thank you for this opportunity to 
testify before you today. I was born in the native village of 
King Cove and raised there. I come in front of you today to 
testify in favor of H.R. 2801. This bill is critical for the 
indigenous Aleuts, and we have come a very long ways to tell 
you why.
    Mr. Chairman, the passage of this bill is a win/win 
situation for all interested parties--the U.S. Government, 
lovers of the wildlife and wilderness, and the Aleut people. 
You have before you a proposed land exchange of an 
unprecedented magnitude, more than 61,000 acres of land from 
the King Cove Corporation and State of Alaska.
    What the bill provides is 206 acres for a single lane 
gravel road through the very small portion of the Izembek 
Refuge. Approximately 97 acres would be the wilderness section 
of the refuge.
    Mr. Chairman, Cold Bay is the third largest airport in 
Alaska. Our problem is having safe, reliable, affordable and 
dependable access to Cold Bay Airport.
    Also, please imagine our surprise and frustration when we 
learned the Federal government made a wilderness out of the 
Izembek Refuge land with no consultation with the Aleut people 
of King Cove.
    We do acknowledge that Congress tried to solve our 
transportation problem about 10 years ago with the King Cove 
Health and Safety Act. Unfortunately, the Act has failed to 
solve our problem. The hovercraft was built and operated and is 
in operation in King Cove at least on those days when our 
weather is agreeable, meaning the winds are laying down.
    The hovercraft does not meet the expectations of the 
feasibility report. It is clear that the hovercraft will not be 
able to operate anywhere near the 12 month/365 day schedule. It 
is prohibitively expensive to operate the hovercraft now, and 
the cost will only go up.
    A copy of the financial proforma is available on our 
website and as an attachment to this testimony. Detailed 
financial projections have concluded that a $500,000 to 
$700,000 annual subsidy is going to be required. Therefore, our 
common sense solution remains a road.
    Mr. Chairman, there is a concern about setting a precedent 
of allowing a new road in the Izembek Wilderness. Today there 
are more than 14 miles of roads traversing the Izembek 
Wilderness and another 35 miles in the Izembek Refuge. In fact, 
there are roads that lead and are used today to the real heart 
of the Izembek Refuge, and I really want to emphasize the heart 
of the Izembek Refuge. That is the eel grass beds in the 
Izembek Lagoon.
    You can trailer your boat and drive it right to the Izembek 
Lagoon where the internationally significant migratory 
waterfowl stop for about two months in the fall to feed. It is 
nonsense to suggest that we would risk damaging the land that 
feeds us.
    Mr. Chairman, we grew up in this wilderness. We have hunted 
and fished in the wilderness all our lives. We know our 
grandchildren and their grandchildren will do the same. We need 
the freedom, safety and peace of mind to have a road connection 
to Cold Bay Airport.
    Mr. Chairman, H.R. 2801 authorizes a land exchange of 
61,723 acres of state and King Cove Corporation land, of which 
45,493 acres will be designated as wilderness by this bill. 
Please understand this is a single lane gravel road. Finally, 
let me emphasize that the road will be constructed with highway 
trust funds through the State of Alaska.
    Mr. Chairman, we must have this road for our people to have 
a quality of life that all Americans expect and to protect the 
life, health and safety of the Aleuts and all people in King 
Cove. This bill is the only way to truly solve the King Cove 
issue. It is fair and just to the American people and to the 
people of King Cove.
    Mr. Chairman, we urgently ask that the Committee pass this 
bill. It is critical to the needs of our people. They are 
Americans that deserve the same quality of life that other 
Americans enjoy.
    Thank you for this time.
    [The prepared statement of Mr. Mack follows:]

            Statement of The Honorable Stanley Mack, Mayor, 
                         Aleutians East Borough

    Good Afternoon, Chairman Rahall, Congressman Young, and other 
members of the Committee. My name is Stanley Mack and I thank you for 
the opportunity to testify before you today and tell you about the 
Native village of King Cove on the Alaska Peninsula where I was born 
and raised. My Aleut ancestors have lived and subsisted in the King 
Cove area for more than 4,000 years.
    I come in front of you today to testify in favor of the ``Izembek 
and Alaska Peninsula Refuge and Wildlife Enhancement and King Cove Safe 
Access Act of 2007''. This bill is critical for the indigenous Aleuts, 
and we have come a very long way to tell you why. In addition to my 
personal life experience and knowledge that I will share with the 
committee today, I am also the mayor of the Alaska Aleutians East 
Borough, the local government equivalent to a county in the lower 48. 
Six communities, having a total population of about 2,500, make up the 
Aleutians East Borough.
    Mr. Chairman, the passage of this bill is a win-win situation for 
all interested parties--the U.S. Government; lovers of wildlife and 
wilderness; and the Aleut people. You have before you a proposed land 
exchange of an unprecedented magnitude. More than 61,000 acres of land 
from the King Cove Corporation and State of Alaska are being offered to 
the federal government in exchange for 1,800 acres. Of these 61,000 
acres being offered to the federal government, more than 45,000 acres 
are being recommended for wilderness status. What the bill provides is 
206 acres for a road corridor through a very small portion of the 
Izembek Refuge. Approximately 97 acres would be in the wilderness 
section of the refuge.
Why Have We Asked for a Road Link for Decades Between the Two 
        Communities?
    Cold Bay is the 3rd largest airport in Alaska with a 10,000' main 
runway and a 6,500' crosswind runway and our only access to the outside 
world. It was built by the U.S. military in 1942 with help from the 
residents of King Cove as part of the Aleutian campaign. It is one of 
the most accessible airports in Alaska, and its existence in Cold Bay 
is the primary reason for Cold Bay's ability to continue to exist. 
Contrast that to the community of King Cove, which is about 10 times 
larger than Cold Bay, only 30 miles away, and we rely on an airstrip 
precariously located between two, volcanic mountain peaks.
    Flights are subject to the extreme weather that we experience 
throughout the year with high winds and periods of thick fog being the 
most common culprits, resulting in delayed or canceled flights about 
50% of the time. The 11 air fatalities, in and around the King Cove to 
Cold Bay corridor since the early 1980's, are another testament to our 
weather conditions. Our problem is having safe, reliable, affordable, 
and dependable access to the Cold Bay airport.
    Our weather is some of the most treacherous in the world with 15-20 
foot seas in winter and winds often more than 50 miles per hour 
throughout the year. In winter, we are further tormented with storm 
winds in excess of 100 mph. In summer, we are plagued by dense fog.
    Also, please try to imagine our surprise and frustration when we 
learned that federal legislation made a ``wilderness'' out of the 
Izembek Refuge lands with no consultation with the Aleut people of King 
Cove. King Cove Aleuts eventually came to the difficult realization 
that their federal government, and other Izembek Refuge user groups, 
did not even care enough to ask what the area's indigenous residents 
had to say about this designation. And because there's no road between 
King Cove and Cold Bay, the 800 residents of King Cove can't avail 
themselves to a world-class airport that members of their families 
helped to build. So this is why we continue to lobby for a road that we 
believe has been unfairly kept from us and is a common sense solution 
to our problem.
    But, we do acknowledge that the Congress tried to solve our 
transportation problem about ten years ago with the King Cove Health 
and Safety Act. Unfortunately, the Act has failed to solve our problem. 
After working for almost a decade on a marine link under the terms of 
the Act, it is clear that this bill was passed in the good faith notion 
that a hovercraft and/or ferry would solve our transportation problem. 
It is now equally clear that it will not work for us as a long-term 
solution.
    The hovercraft is built and operational in King Cove, at least on 
those days when our weather is agreeable, meaning the winds are lying 
down. This is what we know now that we didn't know when Congress 
granted us this funding:
    1) The hovercraft does not meet the expectations of the feasibility 
report. Given the variability of the winds and weather, we cannot 
forecast the operational windows that will give us reliability. It is 
clear that the hovercraft will not be able to operate anywhere near a 
12 month/365 day schedule. Current conditions allow about 80 % 
operations, but this will go down once the winter weather begins in 
earnest. This kind of uncertainty will simply not provide the people of 
King Cove the health, safety and quality of life they deserve.
    2) It is prohibitively expensive to operate the hovercraft now and 
costs will only go up. Given the choice between a hovercraft and 
conventional ferry, the hovercraft had the smaller operational cost. 
It's like a public transit system anyplace in the United States 
requiring a major governmental subsidy. A copy of the financial pro 
forma is available on our web site (www.izembekenhancement.org). 
Detailed financial projections have concluded that a $500,000 to 
$700,000 annual subsidy is going to be required. This annual subsidy is 
simply not in the realm of fiscal or political reality for a government 
organization the size of the Aleutians East Borough. Therefore, our 
common sense solution remains the road.
Many Roads Already Exist in the Izembek Refuge and Wilderness.
    We have heard talk of impacts about waterfowl and caribou from the 
road we must have. There is concern of setting a ``precedent'' of 
allowing a new road in the Izembek wilderness. Today, there are more 
than 14 miles of roads, traversing the Izembek Wilderness and another 
35 miles in the Izembek Refuge. In fact, there are roads that lead and 
are used today to the real heart of the Izembek Refuge, the eelgrass 
beds of the Izembek Lagoon. You can trailer your boat and drive it 
right to the Izembek Lagoon where the internationally significant 
migratory waterfowl stop for about two months in the fall. (See 1995 
letter from G. Siekaniec attached).
    The land that is called Izembek (a name ``bestowed'' by a Russian 
in 1827) has been the Aleut people's backyard for 4,000 years. The land 
that is designated the Izembek National Wildlife Refuge (a name 
``bestowed'' by the federal government, without anyone in King Cove 
being consulted) has been King Cove's backyard now for almost 50 years. 
Aleuts will be here, living and caring for this land, even as the names 
on maps may change. I suggest that we know how to ``leave no mark'' on 
the land, otherwise how do you square the successful co-existence of 
our people with this land for all these centuries? It is nonsense to 
suggest that we would risk damage to the land that feeds us.
    Mr. Chairman, Aleuts don't need a regulation to define wilderness 
for them. We grew up in this wilderness. We have hunted and fished in 
this wilderness all our lives. We know our grandchildren and their 
grandchildren will do the same. We need the freedom, safety and peace 
of mind of having a road connection to the Cold Bay airport.
What H.R. 2801 Provides
    Mr. Chairman, H.R. 2801 authorizes a land exchange of 61,723 acres 
of State and King Cove Corporation land of which 45, 493 acres will be 
designated as wilderness by this bill. This will be the first 
wilderness designated in a national park or refuge Alaska in over 25 
years. In return, the State of Alaska will obtain a 206 acre road 
corridor and a 1600 acre island near Kodiak which the Coast Guard will 
soon surplus. The bill requires special protection for the environment. 
Please understand this is a single lane, gravel road.
    Finally, let me emphasize that the road will be constructed with 
highway trust funds through the State of Alaska. We are not asking for 
federal funding to construct or maintain this road.
    Mr. Chairman, we love our rugged homeland, but this is a life and 
death issue to the Aleut people. We are completely supported by all 
local governments, our tribes, the State of Alaska, the Aleut 
Corporation, and the Alaska Federation of Natives in this endeavor.
    We must have this road for our people to have a quality of life 
that all Americans expect and to protect the life, health, and safety 
of the indigenous Aleuts and all people in King Cove. To ensure that 
Congress will act on request, we and the State of Alaska have proposed 
an unprecedented land exchange which will benefit all Americans.
    We want to thank the State of Alaska and Governor Sarah Palin and 
her predecessor Frank Murkowski for the state's strong support of this 
proposal. The state has truly been a partner to us every step of the 
way. We also want to thank the Aleut Corporation, the Agdaagux Tribe 
and the Alaska Federation of Natives for their strong support. We also 
want to thank the shareholders of the King Cove Corporation for putting 
its own resources, the land, into this proposed exchange. The key lands 
at Mortensen's Lagoon are a critical part of this proposal and could 
only have been made available because of the willingness and need for 
the King Cove shareholders to take care of the life, health, safety and 
quality of life of the King Cove residents.
    In your consideration, please let science, common sense and 
fairness be the standards used to evaluate our offer. We urge this 
Committee to approve this bill.
Conclusion
    I want to close with a passage from a book which describes the 
difficult situation which the exchange will address. Noted author Tony 
Horwitz, author of the popular bestseller (``Confederates in the 
Attic'') described the wind in King Cove in his book ``Blue Latitudes'' 
which tracked the legendary voyages of Capt. James Cook:
    ``The wind blew so hard that I (Horwitz) was almost crawling on all 
fours by the time I reached the end of the pier.'' Quoting one of the 
King Cove locals: ``This is a nice day today. Last month we clocked the 
wind at one hundred thirty seven miles an hour.''
    Horwitz also quoted Capt. James Cook--``This country is more rugged 
than any part we had yet seen.''
    This bill is the only way to truly solve the King Cove issue. It is 
fair and just to the American people and to the people of King Cove. 
Mr. Chairman, we urgently ask that the Committee pass this bill. It is 
critical to the needs of our people. They are Americans that deserve 
the same quality of life that other Americans enjoy. I thank you for 
your time and I will be happy to answer any questions you may have.
    Submissions for the record:
    1.  Alaska Federation of Natives Resolution
    2.  Agdaagux Tribal Resolution
    3.  Aug. 7, 1995 - Letter from Greg Siekaniec, Izembek Refuge 
Manager
    4.  Questions and Answers on H.R. 2801
    5.  Northern Economics Study re: Hovercraft
    6.  ``Blue Latitudes''--Excerpt
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    The Chairman. Thank you very much.
    Ms. Trumble?

            STATEMENT OF DELLA TRUMBLE, PRESIDENT, 
                     KING COVE CORPORATION

    Ms. Trumble. Good afternoon, Chairman Rahall, Congressman 
Young and other congressional Members of the House Natural 
Resources Committee. My name is Della Trumble. I am an Aleut 
and was born and raised in King Cove, Alaska.
    It is my privilege this afternoon to speak to you on behalf 
of all the shareholders of the King Cove Corporation, of which 
I am the president, and as a member of the Agdaagux Tribe of 
King Cove and all other residents of King Cove.
    I speak to you today as an Aleut, a mother, a shareholder, 
an Alaskan and a citizen of the United States. I am deeply 
connected to the land that you know as the Izembek Refuge 
through my ancestors, who have lived and subsisted on this 
wilderness for 4,000 years. They speak through me today in 
asking for your support of H.R. 2801.
    On behalf of my ancestors, I look to the future of the 
lands that are the Izembek Refuge. I ask you to hear me now in 
a way that we were not heard when this wilderness designation 
was first established years ago.
    I remain puzzled and angered by the fact that the 
designation of these lands as wilderness were made without a 
single public hearing in King Cove. The records state that 
meetings were held in Cold Bay and Anchorage, but not in King 
Cove, the community most affected by the decision to create 
wilderness.
    I would be proud to show you the beautiful community that 
is King Cove, nestled between sea and volcanic mountains. Gale 
force winds and fog can dominate our weather. Air travel 
between our community airstrip and the all-weather airport in 
Cold Bay is delayed or canceled about half the time.
    This may sound like a minor inconvenience, unless of course 
it happens on a day when a child becomes suddenly very ill or a 
fisherman is injured or an elder is found unconscious. Then it 
is anguish for some families in King Cove, and it has brought 
tragedy.
    Since 1979, 11 people have died flying between King Cove 
and Cold Bay in bad weather. Even today, pregnant women must 
leave town and temporarily relocate to Anchorage for six to 
nine weeks before their due date for fear of premature labor. 
In fact, my niece was born at sea on the galley table of a 
fishing vessel. The reason was her mothers' premature labor 
forced her to endure a dangerous three-hour ocean voyage 
because of prohibitive weather.
    Because predictable, dependable and safe transportation 
access in and out of King Cove is essential for our sustainable 
future and a major enhancement to our quality of life, it 
continues to be our most important priority. We have advocated 
for decades now to have this access to the Cold Bay airport, an 
airport that King Cove residents helped to build during World 
War II.
    As the president of the King Cove Corporation, I take my 
responsibilities seriously. I recognize that I have a duty to 
my shareholders to pursue those actions that will improve the 
quality of their lives and the lives of future generations in 
ways that are direct, quantifiable and which reflect our deep 
and abiding connection to the land.
    We come before you today not with our hat in hand. We are 
offering more than 18,000 acres of King Cove Corporation lands 
as part of the land transfer proposal that is contained in this 
legislation.
    This land is very important to our shareholders and the 
nation. It has some of the most valuable wildlife habitat in 
the area and is accessible to the Cold Bay Airport. It is 
highly valued by the Fish and Wildlife Service as a key 
addition to the Alaska Peninsula and the Izembek Refuge 
complex.
    Some of our critics suggest that most of our lands, and 
those being offered by the State of Alaska, do not have equal 
value to the lands we are seeking for our road easement. This 
is simply not true.
    This Committee will probably hear today that this land is 
not threatened and therefore not necessary to add to the Refuge 
and Wilderness System. That is insulting to us. The Aleuts have 
been good stewards of all this land for 4,000 years. Are we to 
be punished because of this good stewardship?
    These King Cove Corporation lands are important to us both 
culturally and for subsistence, but the need for safe, reliable 
and affordable travel for our Aleut indigenous people is even 
more important.
    Now we are proposing to return a significant portion of 
those lands to the Federal government to resolve this 
transportation access problem. Please let our voices be heard 
this time. We are here in good faith to ask that the value of 
this land exchange be given an objective and thorough review. 
Please, we ask to pass H.R. 2801 so our people can finally have 
the access they deserve.
    Thank you, Mr. Chair.
    [The prepared statement of Ms. Trumble follows:]

      Statement of Della Trumble, President, King Cove Corporation

    Good afternoon, Chairman Rahall, Congressman Young and other 
Congressional members of the House Natural Resources Committee.
    My name is Della Trumble. I am an Aleut and was born and raised in 
King Cove, Alaska. It is my privilege this afternoon to speak to you on 
behalf of all the shareholders of the King Cove Corporation, of which I 
am the President. I am also speaking as a member of the Agdaagux Tribe 
of King Cove, and for all other residents of King Cove.
    I speak to you today as an Aleut, a mother, a shareholder, an 
Alaskan and a citizen of the United States. I am deeply connected to 
the land that you know as the Izembek Refuge through my ancestors, who 
have lived and subsisted on this wilderness for 4,000 years. They speak 
through me today in asking for your support of H.R. 2801.
    My father came from the village of Belkofski, about 20 miles from 
King Cove. This village has since ceased to exist, in part because of 
its remote location and difficult access, which made living there 
impossible. ``Disappearing'' villages are phenomena that our Aleut 
culture has had to endure. We have lost a number of villages because of 
isolation and the lack of transportation that other Americans including 
Indigenous residents of the lower 48 take for granted.
    As a mother, and on behalf of my ancestors, I look to the future of 
the lands that are the Izembek Refuge. I ask you to hear me now in a 
way that we were not heard when this wilderness designation was first 
established many years ago.
    As an Aleut, and a U.S. citizen, I remain puzzled and angered by 
the fact that the designation of these lands as wilderness were made 
without a single public hearing in King Cove. The records state that 
meetings were held in Cold Bay and Anchorage, and not in King Cove--the 
community most affected by the decision to create wilderness.
    No one from the federal government ever let us tell our story and 
why the wilderness would cut us off from the outside world with no hope 
of protecting our life, health, safety and quality of life. That is why 
we continue to fight for a just and fair solution to this problem. The 
passage of H.R. 2801 will provide that solution.
    I would be proud to show you the beautiful community that is King 
Cove, nestled between sea and volcanic mountains. Gale force winds and 
fog can dominate our weather. One result is that air travel between our 
community airstrip, located between two mountain peaks, and the all-
weather airport in Cold Bay, is delayed or canceled about half of the 
time. This may sound like a minor inconvenience, unless of course it 
happens on a day when a child becomes suddenly very ill, or a fisherman 
is injured, or an elder is found unconscious. Then it is anguish, and 
for some families in King Cove, it has brought tragedy. Since 1979, 
eleven people have died flying between King Cove and Cold Bay in bad 
weather.
    Even today, pregnant women must leave town and temporarily relocate 
to Anchorage for 6-9 weeks before their due date for fear of 
unpredictable weather, premature labor and complications. We think 
about this all the time because in a town as small as King Cove, we 
know who is facing this situation. In fact, my niece was born at sea on 
the galley table of a fishing vessel. Her mother's premature labor 
forced her to endure a dangerous 3-hour ocean voyage because of high 
winds and blizzard conditions.
    Because predicable, dependable, affordable and safe transportation 
access in and out of King Cove is essential for our sustainable future 
and a major enhancement to our quality-of-life, it continues to be our 
most important priority. We have advocated for decades now to have this 
access to the Cold Bay airport--an airport that King Cove residents 
helped to build in World War II.
    As President of the King Cove Corporation, I take these 
responsibilities seriously. I recognize that I have a duty to our 
shareholders to pursue those actions that will improve the quality of 
their lives and the lives of future generations in ways that are 
direct, quantifiable and which reflect our deep and abiding connection 
to the land. It is my intent here today to do just that with my 
testimony in favor of H.R. 2801.
    We come before you today not with our ``hat in hand.'' We are 
offering more than 18,000 acres of King Cove Corporation lands as part 
of the land transfer proposal that is contained in this legislation. 
This land is very important to our shareholders and the nation. It is 
some of the most valuable wildlife habitat in the area. It is 
accessible to the Cold Bay Airport, and it is highly valued by the Fish 
and Wildlife Service as a key addition to the Alaska Peninsula and the 
Izembek Refuge complex.
    Some of our critics suggest that most of our lands, and those being 
offered by the State of Alaska do not have equal value to the land we 
are seeking for our road easement. This is simply not true.
    We also hear and this Committee will probably hear today that this 
land is not threatened and therefore not necessary to add to the Refuge 
and Wilderness Systems. That is insulting to us. The Aleuts have been 
good stewards of all this land for 4,000 years. Are we to be punished 
because we have been good stewards of our land?
    Congress rejected that same argument in 1980 when the Alaska 
National Interest Lands Conservation Act was passed. Most of the 
Izembek Refuge and more than 50 million acres of ``non-threatened'' 
lands were turned into wilderness in 1980 by this Committee under 
ANILCA. Nevertheless, Congress deemed these ``non-threatened'' lands as 
necessary for protection in the wilderness system. Such statements are 
confusing to us.
    These King Cove Corporation lands are important to us, both 
culturally and for subsistence, but the need for safe, reliable and 
affordable travel for our Aleut indigenous people is even more 
important.
    The federal government's objective for the Alaska Native Claims 
Settlement Act in the early 1970's was the settling of all aboriginal 
land claims throughout the state in order to access the oil wealth in 
northern Alaska. Now, we are proposing to return a significant portion 
of those lands to the federal government to resolve this transportation 
access problem that another arm of the federal government created for 
us.
    Please let our voices be heard this time. We are here today in good 
faith to ask that the value of this land exchange is given an objective 
and thorough review. Please pass H.R. 2801 so our people can finally 
have the access they deserve.
    Thank you for your time, Mr. Chairmen and members of the committee. 
I'll be happy to take any questions that you have.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Raskin?

             STATEMENT OF DAVID RASKIN, PRESIDENT, 
          FRIENDS OF ALASKA NATIONAL WILDLIFE REFUGES

    Mr. Raskin. Thank you, Chairman Rahall, Representative 
Young and Members of the Committee. My name is David Raskin. I 
am president of the Friends of Alaska National Wildlife 
Refuges. We thank you for the opportunity to comment on H.R. 
2801.
    Our volunteer organization works with the Fish and Wildlife 
Service to protect and enhance the 16 national wildlife refuges 
in Alaska. Our membership includes Alaskan natives, sportsmen, 
business leaders, conservationists and concerned citizens 
throughout Alaska.
    I also offer this testimony on behalf of the National 
Wildlife Refuge Association, whose membership is comprised of 
current and former Fish and Wildlife staff, more than 100 
affiliate groups nationwide.
    We strongly oppose H.R. 2801, which includes a proposal to 
build a nine mile road through the biological heart of the 
Izembek National Wildlife Refuge Wilderness for the ostensible 
purpose of giving King Cove emergency medical access to jet 
service at Cold Bay.
    Since hovercraft service now provides King Cove rapid 
access to Cold Bay, the proposed road simply is not needed. 
Congress previously rejected a road through the Izembek isthmus 
because of unacceptable harm to wildlife and wilderness.
    Instead, Congress appropriated $37.5 million to improve the 
King Cove medical clinic and airport and purchase the $9 
million state-of-the-art hovercraft which has performed at 
least 16 rapid medical evacuations to Cold Bay. With millions 
of American children having no health care coverage whatsoever, 
it seems indefensible to spend further Federal funds on a 
health care problem that has been solved.
    The Izembek National Wildlife Refuge was established in 
1960 to protect critical habitat for the Pacific black brant. 
The heart of this internationally recognized refuge is a narrow 
isthmus between Kinzarof and Izembek Lagoons, which contains 
two of the largest eel grass beds in the world on which the 
Pacific brant and other avian species depend for survival.
    Fish and Wildlife Service has repeatedly declined to 
exchange lands for a 33 mile road connecting King Cove and Cold 
Bay, stating the road through the key wildlife habitat and 
designated wilderness is not in the public interest.
    The Army Corps of Engineers determined that an isthmus road 
would have the most significant environmental impact of all six 
alternatives they considered. They recommended the road 
hovercraft link to Cold Bay.
    King Cove accepted $37.5 million from the Federal 
government, and the Suna-X hovercraft now operates successfully 
from the dock in Leonard Harbor just five miles from King Cove 
Airport. In 20 minutes it transports 50 passengers, an 
ambulance and cargo to Cold Bay. As of July 19, the Suna-X had 
transported more than 1,090 passengers, 110 vehicles and 
110,000 pounds of freight.
    Traveling 33 miles around Cold Bay on a gravel road could 
have deadly consequences in a medical emergency, particularly 
during high winds, ice, winter avalanches and blowing and 
drifting snow. Extreme high tides, coupled with high winds, 
could severely damage the road and would pose profound dangers 
and severe health risk to an ill passenger subjected to an 
estimated 110 minute trip on a rugged, remote road.
    The folly of relying on road travel is eloquently described 
in the testimony of Terry Mack, a long-time Alaska resident and 
former EMT in Cold Bay. ``I witnessed the power and fury of 
nature, which causes me to question the sensibility of 
constructing a gravel road for the purpose of medical 
evacuation. While proponents suggest that a road is necessary 
for safety because planes and boats are sometimes grounded by 
inclement weather, I know that road vehicles are also useless 
under such conditions.''
    However, the hovercraft can operate in wave heights over 10 
feet and winds over 45 miles per hour that occur less than one 
percent of the time. Despite the success of the hovercraft and 
the substantial cost to build and maintain even more road, King 
Cove has asked Congress to reverse its previous decision.
    They spent the $26 million and completed only one-third of 
the road. Finishing the remaining 12 miles and constructing 
another 16 miles through the isthmus to Cold Bay will likely 
cost even more than that with annual maintenance costs 
extremely high in this harsh climate.
    It is unreasonable for King Cove to come back to Congress 
10 years later and ask for a road that cannot be justified. 
Meanwhile millions of Americans nationwide have no access to 
any health care whatsoever.
    The Congressional Budget Office recently estimated that 
providing health care under SCHIP to one child for one year 
costs $1,335. The Federal dollars to construct just the isthmus 
portion of the road could provide health care for nearly 12,000 
needy children next year.
    We suggest that the residents of King Cove and Aleutians 
East Borough ask the State of Alaska to maintain the hovercraft 
as they do for the Alaska Marine Highway System. It makes sense 
to spend less to subsidize and maintain the faster and safer 
hovercraft.
    In 2003, Aleutians East Borough committed to pay half of 
the estimated operating cost of $860,000, but reliable 
information indicates that that may be cut in half and could be 
covered by passenger and cargo revenue, leaving Aleutians East 
Borough with little or no cost.
    The Refuge Improvement Act of 1997 requires the Secretary 
of the Interior to maintain the biological integrity, diversity 
and environmental health of the system. The offered lands are 
under no present threat and will not compensate for the major 
irreversible impacts of the proposed road.
    Only three weeks ago during the oversight hearing on the 
National Wildlife Refuge System Improvement Act, Director Dale 
Hall stated that roads through refuges typically cause problems 
and do not contribute to the purposes of refuges. Since both 
law and policy are in conflict with the road through the heart 
of the refuge, the road must be rejected.
    President Theodore Roosevelt established the National 
Wildlife Refuge System in 1903, which includes Izembek, 
internationally recognized for its significant wetlands and 
importance for migratory birds.
    Representing 56 native villages, the Association of Village 
Council Presidents has reaffirmed to this committee its 
opposition to the proposed road because of severe threats to 
the important subsistence food on which they depend.
    The hovercraft has proven to be the fastest, safest and 
most cost effective way for King Cove to have reliable 
emergency access to Cold Bay without impacting one of America's 
and the world's great national treasures.
    We Alaskans urge Congress to reject House Bill 2801. Thank 
you very much for your consideration.
    [The prepared statement of Mr. Raskin follows:]

        Statement of David Raskin, President, Friends of Alaska 
              National Wildlife Refuges, Anchorage, Alaska

    Mr. Chairman and Members of the Committee:
    My name is David Raskin, president of the Friends of Alaska 
National Wildlife Refuges. On behalf of the Friends of Alaska NWRs, I 
thank you for the opportunity to offer comments about H.R. 2801, the 
Izembek and Alaska Peninsula Refuge and Wilderness Enhancement and King 
Cove Safe Access Act. The Friends of Alaska NWRs is an all-volunteer 
organization that works with the U.S. Fish and Wildlife Service (FWS) 
to protect and enhance the 16 National Wildlife Refuges in Alaska. Our 
membership is diverse, including Alaskan sportsmen, educators, business 
leaders, conservationists, and concerned citizens in cities, towns, and 
villages. We have regional representatives all around Alaska, including 
two Alaska Natives who coordinate activities with five of the largest 
refuges. Our priority programs include rural outreach, in which we send 
members to villages to work with Native youth in science education 
camps, and the removal of invasive species that threaten the habitat of 
many of our refuges. We also conduct community outreach programs to 
educate the public about the values of wildlife refuges and involve 
local citizens in working with their local refuges.
    I offer this testimony also on behalf of the National Wildlife 
Refuge Association, whose membership is comprised of current and former 
Fish and Wildlife staff, more than 140 Affiliate groups nationwide, and 
thousands of private citizens across the country who support our 
nation's wildlife refuges.
    The Friends of Alaska NWRs strongly opposes H.R. 2801, which 
includes a proposal to build a road through the biological heart of the 
Izembek National Wildlife Refuge on the Alaska Peninsula. The proposed 
road seeks to connect the villages of King Cove (population 807) and 
Cold Bay (population 80). However, this legislation is a solution in 
search of a problem. Since the 98-foot Suna-X hovercraft has begun 
regular service between King Cove and Cold Bay, a viable, operational, 
and successful link between the two communities now exists. Further, 
the new medical clinic in King Cove provides an added level of security 
to deal with medical emergencies.
Background
    King Cove is 25 air miles from Cold Bay, site of Alaska's third-
longest runway that provides scheduled commercial jet service to 
Anchorage. However, during inclement weather, the short flight from 
King Cove to Cold Bay can be dangerous; 11 people have died in 
accidents flying between these villages since 1979. On the basis of 
their public safety concerns, residents of King Cove have sought the 
construction of a road to Cold Bay since the mid-1990s. Nine miles of 
this proposed road would cut through the Congressionally-designated 
Wilderness of the 315,000-acre Izembek National Wildlife Refuge.
    Congress addressed the road issue in 1998 after King Cove residents 
argued that they lacked adequate access to medical and airport 
facilities. Having decided that a road through the heart of the Izembek 
refuge would be unacceptably harmful to wildlife and Wilderness, 
Congress responded by allocating $37.5 million for medical and airport 
improvements and a 98-foot, state of the art hovercraft that has 
already provided 16 rapid and successful medical evacuations to Cold 
Bay Airport. At a time when millions of American children have no 
health care coverage whatsoever, it strikes us as unconscionable and 
wasteful to allocate further taxpayer dollars to address a health care 
challenge that has already been solved. Further, a road through this 
majestic, federally designated Wilderness would likely have devastating 
impacts on wildlife, resulting in habitat fragmentation, disturbance, 
and pollution.
Izembek NWR--A Haven for Wildlife
    The Izembek National Wildlife Refuge was established in 1960 to 
protect critical habitat for the Pacific black brant. At 417,533 acres, 
it is the smallest of the 16 Alaskan refuges, and more than 95% is 
designated Wilderness under the Alaska National Interest Lands 
Conservation Act. Although the refuge was specifically established to 
protect almost the entire world population of Pacific black brant, 
other abundant wildlife includes brown bears, moose, caribou, wolves, 
seals, seal lions, sea otters, five species of salmon, and numerous 
species of migratory birds. At the heart of the refuge is a narrow 
isthmus bordered by Kinzarof and Izembek Lagoons. They contain some of 
the largest eelgrass beds in the world, on which the Pacific brant and 
other avian species depend for survival.
    More than 98% of the world's Pacific black brant feed voraciously 
on the eelgrass in the Izembek lagoon in order to fuel up prior to 
their nonstop, 3000-mile trip to Mexico. The nearby wetlands offer 
nesting sites for thousands of birds. During migrations, more than a 
half million birds use this refuge and its sensitive wetlands. The 
importance of the Izembek refuge was accorded world recognition in 1986 
under the Reagan Administration when it became the first wetland area 
to be designated as a Wetland of International Importance by the RAMSAR 
Convention. In 2001, it was also designated as a Globally Important 
Bird Area. Given the remarkable wildlife and habitat values represented 
in the refuge, a road through the heart of Izembek would run counter to 
all that it represents.
    The FWS has consistently rejected a road through the Izembek 
Wilderness because of its serious environmental impacts. From 1995-
1997, the FWS declined offers from the King Cove Corporation to 
exchange lands for a right-of-way through Izembek Refuge in order to 
construct a 26-mile road connecting King Cove and Cold Bay. When road 
proponents sought legislation in 1997 to approve a road, the FWS 
objected and stated that a road through key wildlife habitat and 
designated Wilderness was not in the public interest. A compromise was 
reached when $37.5 million was included in the FY 1999 Omnibus 
Appropriations Act to implement The King Cove Health and Safety Act. 
This legislation funded a road-hovercraft link between King Cove and 
Cold Bay and improvements to the King Cove Airport and clinic. 
Following passage of that Act, in 2004 the Army Corps of Engineers 
completed the King Cove Access Project EIS and recommended construction 
of a road-hovercraft link between King Cove and Cold Bay, thereby 
avoiding the Refuge. For comparison purposes, the EIS evaluated the 
impacts of a road from King Cove to Cold Bay, which was found to have 
the most significant impacts to wildlife of all six alternatives they 
had considered.
    By early 2006, the Aleutians East Borough (AEB) completed a one-
lane 5-mile gravel road from the King Cove airstrip to an interim 
hovercraft dock in Lenard Harbor for the Suna-X hovercraft. This vessel 
cost $8.8 million and can transport up to 50 passengers, an ambulance, 
and cargo. The permanent hovercraft dock was to be built another 13 
miles further--right up to the edge of the Izembek NWR. However, the 
AEB ran out of money in January 2006 and did not complete the road to 
the distant hovercraft dock. The road-hovercraft link from King Cove to 
Cold Bay has been used since late 2006 and has provided 16 successful 
emergency medical evacuations as of July 2007.
Impacts to Wildlife
    Constructing a road through the Izembek National Wildlife Refuge 
would have numerous negative impacts on wildlife and would degrade the 
critical wetlands habitat and wilderness quality of the refuge. The 
isthmus through which the road would be constructed is extremely 
narrow; standing in the center, one can see the Izembek Lagoon to the 
north and the Kinzarof Lagoon to the south. Pacific black brant gorge 
on the eelgrass beds of Izembek Lagoon before their non-stop journey to 
wintering grounds in Mexico. Birds and wildlife, such as brown bears, 
travel between the two lagoons, sometimes more than once a day, in 
search of food exposed by receding tides. Caribou use the isthmus as a 
wintering ground and as a corridor when traveling to and from wintering 
grounds beyond the refuge, and brown bear traverse the area to reach 
their winter dens.
    The Refuge Improvement Act of 1997 mandates that in administering a 
refuge, the Secretary of the Interior, through the Refuge Manager, 
shall ensure that the biological integrity, diversity, and 
environmental health of the System are maintained. Under this mandate, 
a road through the heart of the refuge is incompatible with the mission 
of the refuge and must be rejected. Road construction, traffic, and 
maintenance could cause irreversible harm to the eelgrass beds and 
wetlands that are vital to many migratory birds. Every passing vehicle 
would flush birds, wasting their valuable energy as they work 
intensively to build up enough strength and resources for their 
migration. A road through this isthmus would also disrupt wildlife 
movement and result in increased animal mortalities. The Department of 
Interior has repeatedly rejected this proposed road. Only three weeks 
ago during the October 9, 2007 oversight hearing on the National 
Wildlife Refuge System Improvement Act, in response to a question about 
a road proposed through Waccamaw National Wildlife Refuge in South 
Carolina, FWS Director Dale Hall stated that roads through refuges 
typically cause problems and do not contribute to the purposes of 
refuges.
Quantity vs. Quality
    H.R. 2801 offers a land exchange in an attempt to buy support for 
this unwise proposal. In exchange for 206 acres upon which the road 
would be built, the legislation would provide 61,000 acres to the 
refuge. At first glance, this might appear to be a beneficial proposal, 
but the offered lands do not provide comparable habitat value to 
compensate for the major, irreversible impacts of the proposed road on 
fish, wildlife, and wetlands. While these lands may have value to 
wildlife, we are unaware of any threats that would compromise their 
integrity. Consequently, even for biological reasons alone, there is no 
compelling justification for Congress to consider such an exchange.
A Problem Already Solved
    Aside from the substantial and tangible threats to wildlife 
embodied in this proposal, the road proponents ignore the crucial 
point: Congress solved this problem when it appropriated $37.5 million 
in 1998. Despite their expenditure of these funds that met their stated 
needs, King Cove and AEB officials continue to maintain that this road 
is necessary for medical emergencies.
    When Congress considered and denied a similar proposal in 1998 for 
a road through the Izembek National Wildlife Refuge, they cited the 
significant anticipated habitat and wildlife losses described in the 
Environmental Impact Statement by the Army Corps of Engineers. Instead, 
Congress appropriated $37.5 million to fund a road-hovercraft link 
between the two villages and improvements to the King Cove Airport and 
clinic. Of the $37.5 million in federal funds, $2.5 million was spent 
to improve the King Cove Medical Clinic and $9 million was used to 
purchase the hovercraft that is currently operating successfully 
between nearby Lenard Harbor and Cold Bay. The remaining $26 million in 
American taxpayer dollars was spent to build 15 miles of a planned 17-
mile, one-lane gravel road from the King Cove Airport to a hovercraft 
dock more distant from King Cove and adjacent to the Izembek 
Wilderness.
    The interim hovercraft dock in Lenard Harbor, just five miles from 
King Cove Airport, has been the launch point for at least 16 successful 
medevacs aboard the impressive Suna-X, where ailing King Cove residents 
have quickly and safely reached the Cold Bay Airport. In such cases, 
the ambulance drives directly aboard the hovercraft for a 20-minute 
ride across Cold Bay on a cushion of air. The 98-feet-long and 50-feet-
wide Suna-X travels at speeds up to 58 mph and can carry 50 passengers 
and 22 tons of freight, including cars, trucks and an ambulance in case 
of emergency. As of July 19, 2007, the Suna-X had transported more than 
1,090 passengers, 110 vehicles, and 110,000 lbs of freight.
    In the event of a medical emergency, traveling all the way around 
Cold Bay on a 26-mile gravel road could have life or death 
consequences, particularly in winter when conditions include 
avalanches, high winds, ice, and blowing and drifting snow. In 
contrast, the hovercraft can travel in wave heights of up to 10 feet 6 
inches and in winds over 45 miles per hour. Historical data indicate 
that winds exceeding this velocity occur less than 1% of the time. 
Despite the success of the hovercraft and the exorbitant costs of 
building and maintaining a road without a clear purpose, King Cove is 
once again asking Congress to permit and fund the previously denied 9 
miles of road through the heart of the Izembek Refuge Wilderness.
A Costly and Challenging Road
    The route of the proposed Izembek Isthmus road is through fragile 
rolling tundra dotted with wetlands and prone to high snowdrifts. The 
rest of the road traverses areas of steep slopes and unstable volcanic 
soils prone to avalanches. Gravel is scarce in remote areas of Alaska 
and must be shipped in, and re-routing and construction delays raised 
the cost of the already-completed 15 miles of road to $26 million in 
2006. At the rate of more than $1.73 million per mile, the additional 9 
miles would have cost at least $15.6 million in 2006 and will be more 
by the time it could be constructed.
    Construction cost alone is adequate justification to reject the 
proposed road. However, this does not even include the cost of 
maintenance, which in this harsh climate could be exorbitant. In 
addition, it does not include the costs of installing and maintaining 
the required cable barriers on both sides of the one-lane road that 
would be designed to offer some protection to the refuge wilderness 
from illegal and damaging off-road vehicle traffic. According to the 
Washington State Department of Transportation, cable-barrier protectors 
cost an estimated $44,000 per mile, with an additional $2,000-$5,000 
per mile for annual maintenance. That amounts to at least $400,000 to 
install the barriers and up to $45,000 annually to maintain them.
    Frequent snowstorms, avalanches, icing conditions, and extreme high 
tides, coupled with high winds would pose serious dangers for drivers 
and would be especially hazardous for ill passengers subjected to an 
arduous and lengthy trip on this rugged and remote road. The claim that 
a road would improve health and safety totally ignores statistics from 
other parts of Alaska that show remarkably high rates of fatalities due 
to inclement weather and hazardous road conditions. According to the 
Alaska Department of Transportation, motor vehicle accidents in the 
year 2000 cost Alaska $475 million dollars. Even when conditions would 
allow travel, the journey would be slow and dangerous. Contrary to the 
stated purpose of the road, it is likely that using the proposed road 
would increase dangers and travel time, thereby posing additional 
health and safety risks to King Cove residents. Although the hovercraft 
may not operate during the infrequent periods of extremely high winds, 
the road would be subject to the additional hazards of ice, drifting 
snow, and poor visibility. Such conditions could make the road 
impassable and would likely close the Cold Bay Airport to jet traffic, 
rendering rapid medical evacuation moot.
Transportation in Remote Areas
    The Friends of Alaska NWRs understand the difficulties faced when 
living in such a remote area and the challenges presented by such a 
harsh environment. Indeed, some of our own members live and have lived 
in Cold Bay and even more remote parts of Alaska. Many members of the 
Friends of Alaska NWRs, including myself, have volunteered our time to 
visit and complete projects at the Izembek NWR. We are familiar with 
the area, the habitat and wildlife, the weather and terrain, and the 
problems that confront the citizens of King Cove and Cold Bay. To that 
end, the Friends of Alaska NWRs have offered to help our fellow 
Alaskans to obtain needed access to medical services.
    If the issue is funding the operation of the hovercraft, we suggest 
that King Cove and AEB officially request that the State of Alaska 
maintain the hovercraft just as they do for the vessels of the Alaska 
Marine Highway System. Instead of spending a substantial amount of 
State road maintenance funds for an unnecessary, undesirable, 
dangerous, and ineffective road, it makes more sense to spend far less 
money to subsidize and maintain a faster and safer mode of transport, 
just as the State does for marine transportation throughout Southeast, 
Southcentral, and Western Alaska. If a physician is needed at the King 
Cove Clinic, that is a different, effective, and less costly problem to 
solve than to build the proposed road. We have offered to assist the 
citizens of King Cove to solve that problem.
    It is neither fair nor reasonable for the people of King Cove to 
have received and expended $37.5 million of American tax dollars that 
solved their expressed needs for health and safety and then come back 
again with the request for a road. The Suna-X hovercraft has already 
demonstrated that it is a successful operational solution to the 
problems the Aleutians East Borough raised in 1998. Although we 
recognize that the residents of King Cove may occasionally have 
difficulty obtaining emergency healthcare, millions of Americans 
nationwide suffer from not having access to any healthcare whatsoever. 
During the ongoing debate over the State Child Health Insurance Program 
or SCHIP, the Congressional Budget Office estimated that the cost of 
providing basic health care to one child for one year is $1,335. With 
the additional dollars needed just to construct the additional 9-miles 
of road, Congress could fund health care for nearly 12,000 children 
next year.
Conclusion
    Congress should reject H.R. 2801, the Izembek and Alaska Peninsula 
Refuge and Wilderness Enhancement and King Cove Safe Access Act. 
Congress already solved this problem in 1998 with an appropriation of 
$37.5 million to upgrade the King Cove Airport and medical clinic, 
purchase a state of the art hovercraft, and build a road to the 
hovercraft dock. In 2003, the Final Environmental Impact Statement 
completed by the Army Corps of Engineers evaluated several alternatives 
for transportation between the communities of King Cove and Cold Bay. 
The King Cove Access Project EIS considered for comparison the 
``Isthmus road alternative'' and concluded that a 9-mile road would 
inflict the most harm on this environment.
    President Theodore Roosevelt created the National Wildlife Refuge 
System in 1903 to provide safe havens for wildlife. The Izembek 
National Wildlife Refuge has been repeatedly recognized internationally 
for its globally significant wetlands and values and importance for 
migratory birds. It was the first wetlands area in North American to be 
recognized under the Ramsar Convention as a Wetland of International 
Importance in 1986. The Wilderness Act of 1964 called upon Americans to 
set aside places ``where the earth and its community of life are 
untrammeled by man, where man himself is a visitor who does not 
remain.'' When Congress has already conferred such protections on 
federal lands, it is incumbent on decision-makers to utilize creative 
alternatives that satisfy other stated needs. We believe that the 
current solution has met the needs of the citizens of King Cove. The 
success of the hovercraft has proven that it is the simplest, fastest, 
safest, and most cost-effective way to provide reliable emergency 
access to medical facilities while protecting one of America's and the 
world's great natural treasures.
                                 ______
                                 
    The Chairman. Thank you, Mr. Raskin.
    Ms. Evans, we will hear from you, and then the Committee 
will recess for votes on the House Floor and return for 
questioning.

   STATEMENT OF NICOLE WHITTINGTON-EVANS, ASSISTANT REGIONAL 
                DIRECTOR, THE WILDERNESS SOCIETY

    Ms. Whittington-Evans. Good afternoon, Chairman Rahall and 
Committee Members. I am Nicole Whittington-Evans with the 
Wilderness Society's Alaska office, which works with a number 
of interests throughout the state, including tribal interests.
    I appreciate the opportunity to comment on H.R. 2801. I 
offer this testimony on behalf of the Wilderness Society, the 
Blue Goose Alliance, Environmental Defense, National Audubon 
Society, Sierra Club and Trustees for Alaska. To date, over 20 
national and Alaska based groups have opposed H.R. 2801. This 
road would be incompatible with the primary purposes of the 
Izembek National Wildlife Refuge and fragment the ecological 
heart of the refuge.
    I have been fortunate to spend time at the Izembek National 
Wildlife Refuge, and my most recent trip was about two weeks 
ago. I have visited both the communities of King Cove and Cold 
Bay, talking with people about the proposed road.
    Thanks to Aleutians East Borough representatives and the 
generosity of Della Trumble, I toured King Cove, flew through 
its airport and drove the completed portion of the new 17 mile 
road. I also flew over the proposed exchange lands during my 
visits.
    The history of wilderness designation in the refuge 
demonstrates overwhelming support for wilderness, including 
Alaska Governor Keith Miller. The 10 years preceding 
designation of the Izembek Wilderness included an extensive 
public process, including extensive outreach to the public and 
the state, Federal and joint governmental proposals spanning 
several congressional sessions. Throughout that time, a road 
between King Cove and Cold Bay did not surface as a priority 
issue in the public debate.
    On many occasions, the Fish and Wildlife Service has 
consistently declared any such road and its construction 
through the refuge to be incompatible and extremely damaging, 
and there has been no assigned space changed in those findings 
and conclusions to this day. In fact, protecting Izembek's 
wilderness habitat has been a priority of every Administration 
since it was identified by President Ronald Reagan as a 
wetlands of global significance.
    However, the current Administration at the Department of 
the Interior apparently believes that the well documented 
incompatibility and subsequent ongoing damages from 
construction and operation of such a road can be mitigated by 
an exchange of lands now outside the refuge.
    Past Administrations have considered exchanges to be in the 
public interest if the lands being received by the Fish and 
Wildlife Service are of higher quality than those being excised 
from a refuge, among other things. This is not the case with 
this exchange.
    Izembek Refuge is not only internationally renowned for its 
hundreds of thousands of migratory waterfowl and shorebirds, 
but also for its brown bear, moose, caribou, wolf, seal, sea 
lion, sea otter and all five species of salmon, among other 
wildlife species.
    The Steller's eider, sea lion and sea otter are listed as 
threatened under the Endangered Species Act, and their habitat 
must be protected according to provisions in the Endangered 
Species Act.
    These sensitive, internationally significant and 
ecologically valuable wetlands and waterfowl will face 
irreparable damage and significant impacts from a road. 
Frequent road traffic will cause the birds to flush, decreasing 
the ability to build up the reserves required for their arduous 
migration south.
    The 2003 Army Corps of Engineers environmental impact 
statement analyzing transportation alternatives for King Cove 
stated that such a road project would involve the following 
impacts: Destruction of tundra and wetlands habitat through 
fill and dredge activities for the road footprint, staging 
areas and gravel pits; accelerated erosion and stream 
sedimentation, decreasing water quality;
    Behavioral changes in animals, such as avoidance of the 
road area due to noise and activity and/or attraction to camp 
garbage; increased consumptive use, reducing waterfowl, 
caribou, wolf and brown bear populations; increased highway 
vehicle and ORV access, significantly expanding the area 
experiencing human disturbance; an overall increased human 
presence, resulting in increased energy expenditures by 
disturbance sensitive species;
    Decreased productivity of habitat and food base, for 
example, impacts of road dust and reduced productivity of eel 
grass beds due to siltation; continued wind and water erosion 
and introduction of sediments and contaminants needed to reduce 
water quality; animal behavioral changes, such as avoidance of 
the road corridor, disruption of migratory patterns, increased 
likelihood of vehicle and wildlife collisions; increased 
vehicle accidents; littering; and violations requiring response 
by the Fish and Wildlife Service and other agencies.
    The EIS also highlights the impacts from the proposed road 
on subsistence opportunities and the numerous small streams and 
coastal wetlands along the northern shore of Kinzarof Lagoon 
which are used by salmon to reach spawning areas.
    The potential impact to subsistence resources, namely the 
Pacific black brant and other migratory waterfowl, have spurred 
the Association of Village Council Presidents to oppose the 
road.
    Just 11 days ago President Bush expressed concerns over the 
nation's migratory bird habitat. The President stressed that 
this is a national issue and instructed Interior Secretary 
Kempthorne to produce a State of the Birds report by 2009. The 
question leads me to ask will this report measure our country's 
protection of one of the world's critically important migratory 
waterfowl sites?
    We believe the road does not offer a reliable or safe 
transportation link. I have brought a photo of a maintenance 
crew attempting to clear the Grant Point Road in the Cold Bay 
area in winter as quickly as it was filling back in. I have 
brought copies for committee Members and would like to submit 
this photo for the record.
    The community of King Cove now has two consistent 
transportation options--airplane and hovercraft--to Cold Bay, 
and we would gladly help them obtain funding for a third 
consistent option, namely Coast Guard transport between these 
two communities for emergency situations with a year-round 
Coast Guard station in Cold Bay. Compared to other communities 
that are also dependent on the Cold Bay Airport, the residents 
of King Cove have a good situation.
    For all of these reasons, including legal and other 
concerns regarding the bill outlined in greater detail in our 
written testimony, we believe the road and land exchange 
proposal should be rejected.
    Thank you very much for this opportunity to comment.
    [The prepared statement of Ms. Whittington-Evans follows:]

Statement of Nicole Whittington-Evans, Associate Regional Director and 
 Alaska Refuge Program Director, Alaska Office, The Wilderness Society

    Good Morning Chairman Rahall and Committee Members. I am Nicole 
Whittington-Evans, Associate Regional Director and Alaska Refuge 
Program Director of The Wilderness Society's Alaska office. I 
appreciate the opportunity to address the panel today, October 31, 
2007, regarding the hearing topic H.R. 2801.
    I offer this testimony on behalf of The Wilderness Society (TWS), 
an organization with over 300,000 members and supporters. Joining TWS 
in our comments are the Blue Goose Alliance, Environmental Defense, 
National Audubon Society and the Sierra Club. Many of these groups and 
18 other associations sent a letter to Congress in June stating our 
united opposition to the land exchange for the purposes of building a 
road between the two small communities of King Cove and Cold Bay. This 
road would be incompatible with the primary purposes of the Izembek 
National Wildlife Refuge and fragment the ecological heart of the 
Refuge; violating the very foundation of its congressionally designated 
Wilderness and place at risk the integrity of its internationally 
significant and strategically vital waterfowl wetlands habitat for many 
species of waterfowl located at the tip of the Alaska Peninsula
    As a long-time resident of Alaska, I have been fortunate to visit 
many of the special places that characterize the beautiful, wild 
landscapes and spectacular wildlife habitat of Alaska. On two 
occasions, I was fortunate to spend time at the Izembek Refuge and see 
firsthand the lands and water holding the distinction of being 
nominated by President Ronald Reagan as the first U.S. site to be 
recognized under the Ramsar Convention as an internationally important 
wetland. I have stood at the edge of the wilderness to see the narrow 
peninsula where the proposed road would be constructed. From that 
vantage point, I could see both the Izembek and Kinzarof Lagoons (the 
Lagoons Complex). In between these lagoons are rolling hills and 
valleys of soft, spongy and fragile tundra dotted by abundant marshes, 
lakes and pools of water.
    While visiting Izembek Refuge, I witnessed the Lagoons crowded with 
Pacific black brant, Emperor geese, and the threatened Steller's eider. 
At that time, I did not see them, but a local expert described to me 
the wildlife that use the isthmus as a travel corridor, foraging area 
and home in vivid detail. I could picture the caribou, wolves, grizzly 
bears, foxes and other wildlife that use the isthmus as a travel 
corridor, hunting zone and home during winter or summer.
    During my trips to Cold Bay, I chartered a small plane to view the 
lagoon complex from the air and looked down on the lands proposed for 
excision in H.R. 2801. In order to build the proposed road, the bill 
would remove Wilderness protection from 206 acres of critical wildlife 
habitat on that narrow wetland isthmus between the Izembek and Kinzarof 
Lagoons ultimately removing them from the refuge via an exchange. In 
return, the Refuge would get almost entirely unrelated and notably 
dissimilar habitat. Only some of the parcels included in the exchange 
would qualify to be designated as Wilderness.
Important Historical Context Regarding This Wilderness and Proposed 
        Road
    When at the Izembek Refuge, I read through the historical files 
that chronicled the extensive outreach during the 1970s to State 
officials and policymakers, the Alaska media, and the public. I 
reviewed many of the comments submitted regarding what was then 
proposed Wilderness. The files show overwhelming support for the 
Wilderness, including a letter from the Governor of Alaska. In total, 
ten years transpired from the time the Izembek wilderness was proposed 
to when Congress granted Wilderness designation to the recommended 
Refuge lands. That decade-long process included town meetings, 
hearings, debates, numerous editorials and opinion pieces, outreach to 
multiple Native organizations, and state, federal, and joint 
governmental proposals spanning several Congressional sessions. All 
this outreach and discussion provided ample time and opportunities for 
public discourse and final decisions, eventually leading to the 
comprehensive 1980 Alaska National Interest Lands Conservation Act 
(ANILCA).
    Yet, throughout that time a road between King Cove and Cold Bay was 
not an issue of debate and was raised only once at the Cold Bay 
wilderness hearing in 1970, posed as a question which was politely 
answered by an official. Further, throughout the many House and Senate 
hearings leading to passage of ANILCA, the road issue was not raised 
nor was it advocated by the very able members of the Alaska 
Congressional delegation. In fact, the next time a road was discussed 
as a possible link between the two towns, occurred during the Bristol 
Bay Cooperative Management Plan studies and planning sessions, circa 
1982-83. The detailed analyses in that plan made clear that such a road 
would be incompatible with the purposes for which Izembek NWR had been 
established, adding that it would cause significant, long-term, ongoing 
and irreparable damage to important fish, wildlife, habitat and 
wilderness values of that refuge. That analysis and discussion was 
authored by several U.S. Fish and Wildlife Service (FWS) biologists and 
then approved and supported by their Alaska Regional Director. From 
that time to today, the compatibility determination, descriptions and 
likely impacts from building a road between the two towns has remained 
unchanged. On many occasions and in many published and circulated 
documents, the FWS has consistently declared any such road and its 
construction through the refuge to be incompatible and extremely 
damaging. There has been no change in those findings and conclusions to 
this day.
    What has changed is the administration at the Department of the 
Interior, which apparently feels that the well-documented 
incompatibility and subsequent ongoing damages from construction and 
operation of the road can be ``mitigated'' by an exchange of lands now 
outside the Refuge for the relatively small amount of Refuge Wilderness 
land immediately, directly and harmfully impacted by building the 
currently described road. This exchange would give thousands of acres 
of mostly undeveloped land to the refuge, and most of this land is 
under no threat of development.
    Mr. Chairman and members, The Wilderness Society and each of the 
organizations joining our testimony today endorse and support the 
original 1982-83 statements of incompatibility and the numerous similar 
subsequent declarations by the FWS throughout the past 25 years. 
Further, we strongly believe that the resulting damages would not be 
mitigated to any measurable or satisfying extent by the proffered 
exchange lands--given their disjunctive locations, generally lower 
wildlife and habitat values, and type of developments on some parcels 
and lack of documented threats to any of the offered lands.
Summary
    The Alaska community of King Cove is asking for costly and damaging 
road access to the Cold Bay airport. The proposed road would cut 
through Izembek National Wildlife Refuge and Wilderness, raising 
serious concerns about impacts to fish and wildlife populations. 
Izembek National Wildlife Refuge is a globally significant wildlife 
sanctuary and has been recognized on the Ramsar Convention List of 
Wetlands of International Importance.
    Congress already rejected the Izembek road proposal in 1998, 
approving instead a marine connection between King Cove and Cold Bay, a 
connection that is operational today, and that has already proven 
itself in completing several emergency evacuations. Recently renewed 
efforts to construct the road include a proposed land exchange that 
would nominally compensate for any loss of Wilderness as a result of 
the road. Equally important, is that the lands being offered in the 
exchange do not represent comparable wildlife habitat value.
    The proposed land exchange would add acreage to the refuge but not 
wildlife value. More specifically, the value of any exchange lands 
would be diminished if the ecological heart of the refuge is lost. More 
specifically, the value of any exchange lands would be made de minimus 
if the negative impacts described by FWS biologists for more than 25 
years become reality. The road would sever these fragile refuge 
wetlands, leading to the degradation of significant ecological 
habitats. Construction, operation and maintenance will entail filling 
wetlands, modifying drainages, potential spillages and pollution, dust, 
noise, on-land barriers and over-land turmoil and disruptions.
    A road would destroy wilderness values and create serious threats 
to sensitive bird populations, brown bears, caribou, and many other 
wildlife species. Citing potential harm to the critical habitat of the 
Pacific black brant is why the Association of Village Council 
Presidents, which represents 56 indigenous Native villages within 
Western Alaska, opposes the King Cove Road.
    Recently, on Saturday, October 20, President Bush expressed 
concerns over the nation's diminishing migratory bird habitat. The 
President stated, ``I don't know if you know this or not, but each year 
more than 800 species of migratory birds brave stiff winds, harsh 
weather and numerous predators to fly thousands of miles. Their final 
destination is the warm climate of the American south, the Caribbean or 
Mexico, where they stay for the winter. These amazing travelers will 
then return to their breeding grounds in the north. And as they span 
these distances, they fascinate and bring joy to millions of our 
citizens. A lot of folks across the country love to watch birds. One of 
the things we've discussed here is a significant environmental 
challenge we face here in America, and that is birds are losing the 
stopover habitats they need and depend on for their annual 
migrations.''
    The President stressed that this is a national issue requiring 
national attention. He also announced an initiative to have Department 
of the Interior Secretary Kempthorne produce a State of the Birds 
Report by 2009. This report will help the U.S. bring more of America's 
bird species into a healthy and sustainable status. The question we 
need to ask is will this report measure our country's protection of one 
of the world's critically important migratory waterfowl sites; lands 
that the U.S. now protects, but would put at risk by constructing a 
road adjacent to the Kinzarof Lagoon, which is heavily used by brant 
and other waterfowl.
    Furthermore, a road through Izembek's Wilderness will cost 
taxpayers millions of dollars. Congress has already helped finance the 
most cost effective mode of transport between King Cove and Cold Bay--a 
specially designed marine hovercraft-ferry system.
    Our organizations support helping the people of King Cove improve 
their transportation link to Cold Bay and have consistently encouraged 
them to seek a safe and dependable marine transportation link. The 
currently available hovercraft-ferry system provides a reasonable, 
financially feasible, safe and practical transportation link between 
King Cove and Cold Bay. It avoids the need to complete a road across 
multiple avalanche zones, unstable volcanic soils and a designated 
Wilderness area. Further, a road would not ensure a safer, reliable 
transportation link. Keeping the roads open during winter months would 
be extremely difficult, if not impossible, when snow is drifting. Even 
routine maintenance of a road that is built on wetlands would be 
challenging and very costly to taxpayers. The hovercraft reportedly has 
already successfully transported a number of med-evac patients from 
King Cove to Cold Bay.
    The road proposed in H.R. 2801 would cut through the protected 
Wilderness of the Izembek National Wildlife Refuge. Over a decade of 
public debate and meetings were held prior to the Congressional 
designation of these lands as Wilderness, to be sure that qualified 
lands were added into the Wilderness System, that watersheds were 
permanently protected, and known conflicts were addressed. A road is 
incompatible with the purposes of Izembek refuge, and would legally 
contradict the King Cove Health and Safety Act, which Congress adopted 
to specifically prohibit a road through Izembek Wilderness. Continuing 
the Congressional protection of this internationally significant 
wildlife habitat and important public land for future generations makes 
sense. The road and land exchange proposal should be rejected.
    The remainder of my testimony provides greater detail on the issues 
I have mentioned and describes additional legal concerns raised by the 
bill's provisions as well as other matters of deep concern to The 
Wilderness Society and other opponents of this unneeded measure.
The Heart of the Wildlife Refuge
    Congress established the Izembek National Wildlife Refuge and 
Wilderness in 1980 as part of the Alaska National Interest Lands 
Conservation Act to safeguard the refuge's extraordinary value. The 
Izembek refuge was established to protect the Pacific black brant and 
its habitat along with other migratory waterfowl and other birds.
    At the center of the 417,533-acre Izembek National Wildlife Refuge 
are two lagoons, the Izembek and Kinzarof. These lagoons are separated 
by a narrow isthmus just 3 miles wide. Combined, the lagoons, their 
immediate watersheds, and the isthmus--the Lagoons Complex--make up the 
ecological heart of the refuge. The area has been recognized 
internationally for having some of the most striking wildlife and 
wilderness values in the northern hemisphere.
    The Izembek/Kinzarof Lagoons Complex has been repeatedly recognized 
internationally for its global significance. Specifically, the refuge 
was:
    <bullet>  Identified under the RAMSAR Convention in 1986 and was 
the first wetlands area in North America on the List of Wetlands of 
International Importance;
    <bullet>  Included as a Marine Protected Area in order to provide 
lasting protection for this Lagoon Complex;
    <bullet>  Recognized as an Important Bird Area (IBA) of global 
significance in 2001 by Birdlife International in partnership with 
National Audubon Society;
    <bullet>  Listed as a Sister Refuge with Russia's Kronotskiy State 
Biosphere Reserve in 1991 through a U.S.--Russian Governmental 
Agreement on Cooperation in Environmental Protection; and
    <bullet>  Celebrated as globally significant for its habitat value 
and role in biodiversity protection by World Wildlife Fund (WWF) and 
The Nature Conservancy (TNC).
    The refuge also qualifies as a Western Hemispheric Shorebird 
Reserve Network Site. Izembek National Wildlife Refuge is best known 
for its world-class waterfowl and shorebird habitat. The Lagoons 
Complex provides breeding, molting, nesting, refueling, staging and 
resting grounds for:
    <bullet>  virtually the entire world's populations of Pacific black 
brant (150,000) and Emperor geese (55,000);
    <bullet>  a significant portion of the world's ``threatened'' 
population of Steller's eiders ( 150,000) which were listed as 
threatened under the Endangered Species Act in 1997; and
    <bullet>  many other migratory and resident waterfowl, including 
Pacific golden plovers, rock sandpipers, dunlins, ruddy turnstones, 
semipalmated plovers, western sandpipers and Izembek tundra swans, 
which are the only essentially nonmigratory breeding population in 
North America.
    The Izembek/Kinzarof Lagoons Complex is important for so many bird 
species due to the presence of some of the world's largest eelgrass 
beds. More than 98 percent of the world's Pacific black brant converge 
on Izembek Lagoon each year to feed on the eelgrass in preparation for 
their 3,000 mile, 55 hour non-stop flight to wintering grounds in 
Mexico. The birds feed on eelgrass for approximately eight weeks before 
their long flight south that usually begins in early November. Emperor 
and Canada geese rely on the eelgrass in the lagoons for nutrients as 
do invertebrates, and marine mammals.
    A road through this ecologically sensitive habitat would fragment 
and degrade the integrity of the Lagoons Complex. This will result in 
impacts that extend well beyond the road and affect the integrity of 
the entire refuge. Birds and mammals use the lagoons, isthmus wetlands, 
tundra and tidal flats to nest, feed, transit and forage--the species 
hardest hit will be those whose essential habitat would be directly or 
indirectly impacted by road construction, maintenance, and traffic. In 
particular, Pacific brant, Steller's eiders, Emperor geese, caribou, 
tundra swans, brown bears, sea otters, sea lions, seals and whales 
would be impacted. Many of these species are rare, declining or even 
listed as Threatened under the Endangered Species Act.
    In addition, the narrow isthmus between Izembek and Kinzarof 
Lagoons is a crucial travel corridor--the only path between the west 
and east sides of the refuge--for wide-ranging species such as bears, 
caribou, and wolves. The Alaska Peninsula Caribou Herd, a population 
that has declined from about 10,000 to fewer than 1,000 in the last 10 
years, uses the isthmus as the only migration corridor between calving 
and wintering grounds. The isthmus is also an important winter foraging 
area for these animals. Moreover, the caribou are known to spend the 
entire winter on the isthmus.
    Some of the highest densities of brown bears on the Lower Alaska 
Peninsula are found in the Joshua Green River Valley, an area within 
three miles of the isthmus and proposed road corridor. Low levels of 
human disturbance have helped maintain the high habitat value of this 
area for brown bears. Bears use the isthmus frequently to forage and 
roam in their search for food. Harbor seals, sea otters, Steller's sea 
lions, and whales frequent the productive waters surrounding the 
refuge. Sea otters, seals, and sea lions spend time along the coast and 
in the lagoons. Both sea otters and Steller's sea lions are listed as 
Threatened under the Endangered Species Act.
Lagoons
    Recognizing that both Izembek and Kinzarof lagoons are essential to 
the wildlife is an imperative first recognized by the establishment of 
the Izembek Refuge in 1960. Brant fly back and forth between the 
lagoons to forage, Emperor geese use Kinzarof Lagoon while often 
foraging in the upland tundra area for crowberries; and the endangered 
Steller's eider's prefer Kinzarof. Last winter, Izembek Lagoon froze-
over several times, making Kinzarof Lagoon particularly important for 
the survival of the wildlife. Both lagoons are essential to wildlife, 
and the Lagoon Complex comprises vital, high quality habitat for many 
species. Degradation or loss of this habitat complex cannot be 
mitigated by offering distant uplands or areas not used by those 
species. Population declines will occur in many species that rely on 
this habitat complex. Such losses may be substantial.
Studies Detail the Harmful Impacts of the Road
    In August 1999 the FWS prepared the King Cove Briefing Report. And 
once again in an unchanged affirmation of the 1982 conclusions found 
that the road alternative is contrary to the purposes of the refuge and 
foresaw unacceptable environmental impacts if a road was constructed on 
refuge lands through the wilderness area. The Service supported further 
study and consideration of other alternatives, such as a marine link, 
which would provide increased travel safety, economic growth and fewer 
ecological impacts. Other State and Federal studies of the same period 
also documented the road as the most destructive and costly alternative 
and similarly favored the marine ferry concept.
    A June 2003 draft Environmental Impact Statement (EIS), conducted 
by the Army Corps of Engineers, examined the potential threats of the 
proposed road from King Cove to Cold Bay. The report stated that there 
is sufficient information available to conclude that the road 
alternative would not qualify as an environmentally preferable 
alternative. The report noted that the determination is based in part 
on the largest footprint (287.0 acres) among the alternatives. The 
report documented the potential scope of the construction, noting the 
need for 36.7 acres of placement of fill material in waters of the U.S. 
including wetlands, of which 2.09 acres are below HTL; 254 stream and 
drainage crossings requiring 8 bridges and 19 culverts across fish 
bearing streams. There would be direct, indirect and cumulative impacts 
on the lands and on wildlife--citing caribou, swans, bears and wolves.
    The report also stated that if the road between King Cove and Cold 
Bay were completed, it would be open for travel by all residents, 
placing no restrictions on the numbers or types of vehicles. Estimates 
of traffic rates on the road are unavailable, but vehicular traffic is 
likely to be variable both on a daily and seasonal basis. Increased 
traffic is also expected beyond that needed for access to Cold Bay 
Airport (for example, the Peter Pan Seafood's Corporation has 
previously indicated that it would truck about 1 million pounds of 
products per year to the Cold Bay airport via the road). Increased 
traffic and transit by large and noisy vehicles would further 
exacerbate the impacts on waterfowl usage of those vital habitats, 
thereby increasing unnecessary stress and negative effects.
    The report also noted that the road has the greatest potential of 
any alternative to adversely affect subsistence harvest due to its 
potential to create great competition between residents of Cold Bay and 
King Cove. Greater access could lead to distributional changes in 
wildlife, such as caribou, brown bear, and wolves. This impact on 
subsistence use due to enhanced access would be negative and 
potentially significant.
Other Native Stakeholders Oppose the Road
    The potential damage to subsistence use is a primary reason that 
the Association of Village Council Presidents (AVCP), the recognized 
tribal organizations and non profit Alaska Native Regional Corporation 
for its 56 member indigenous Native villages within Western Alaska, has 
opposed the King Cove Road. In 1998, the AVCP passed a resolution 
opposing the road. On October 17, 2007, I received a letter from Myron 
Naneng, President of the AVCP reaffirming their opposition and citing 
their interest and concern for the critical habitat of our Pacific 
black brant that use the area for staging and feeding during their long 
and treacherous spring and fall migrations.
    The resolution notes that ``the people of the Y-K Delta are primary 
stakeholders of waterfowl, our customary, and traditional use of birds 
has long been used as part of our diet and culture and because of the 
destructive development and habitat loss conducted by those areas in 
the Pacific Flyway through out the 1960's, 70s, and 80's significantly 
affect waterfowl populations resulting in curtailing our subsistence 
hunters and gather's practice.''
Congress already rejected a road and funded an alternative
    Congress determined that a road through Izembek Wilderness is not 
in the public's best interest when, in 1998, it passed the King Cove 
Health and Safety Act. With this legislation, Congress addressed King 
Cove residents' health and safety concerns by providing $37.5 million 
to upgrade King Cove's medical facilities, improve the airstrip in King 
Cove, purchase a hovercraft, construct marine terminals in King Cove 
and Cold Bay, and build an unpaved road between the town of King Cove 
and the connecting marine terminal.
    Congress reiterated its intention not to permit a road through 
Izembek's designated Wilderness in the King Cove Health and Safety Act, 
Section 353:
    In no instance may any part of such road pass over any land within 
the Congressionally-designated wilderness (d) All actions undertaken 
pursuant to this section must be in accordance with all other 
applicable laws.
    After passage of the King Cove Health and Safety Act, Alaska 
Senator Ted Stevens sponsored a rider on an appropriations bill that 
directed a 17-mile road be built from King Cove to a hovercraft 
terminal. Construction for this road began in March, 2004. More than 
$25 million dollars have been spent for this road, which remains 
unfinished. Construction costs continued to escalate as crews 
confronted numerous obstacles, including unstable volcanic soils in the 
area. Avoiding the unstable soils has meant rerouting the road onto the 
sensitive shores of Cold Bay, where winter ice scouring and spray will 
increase maintenance costs. All of that effort and additional cost 
remains puzzling to observers since it would move the existing ferry 
terminus in Lenard Harbor, which is only seven miles from King Cove, to 
a point 10 miles further away and requires longer transits across steep 
mountainous terrain where winter travel conditions would be made even 
more treacherous.
Hovercraft Ferry is as Successful as Congress Intended
    A portion of the $37.5 million in taxpayer funds was used to 
acquire and equip a hovercraft, a type of vehicle most often used by 
commercial and military operators in such conditions as ice floes, 
mudflats, beaches and tundra. Unique to the hovercraft is its ability 
to land without a traditional dock or harbor.
    The near 100-foot hovercraft has been operating for about a year 
and in the past year has been used successfully in 15 medical 
evacuations helping King Cove residents cross the 20 miles across the 
bay to reach the Cold Bay airport. The hovercraft, powered by four MTU 
2000 diesel engines, is the largest hovercraft ever built in the U.S. 
The craft seats 49 passengers and travels an average of 52 mph. On flat 
water with a light load, the hovercraft can maintain speeds in excess 
of 578 mph. In reasonable weather, fully loaded, cruise speed is around 
40 mph and the hovercraft can complete the one way trip from King Cove 
to Cold Bay in 15 minutes. The hovercraft can operate routinely in 
waves of more than 6 feet and winds up to 46 mph.
Road Extension Would be Costly; Wouldn't Consistently Be Available.
    The road now being proposed to extend the incomplete $25 million 17 
mile segment and connect King Cove and Cold Bay could be an additional 
cost to taxpayers that does not make sense. Due to high winds and 
drifting snow, roads in Cold Bay are difficult to keep open in winter 
months. Last year several roads in Cold Bay, including the current road 
to the airport, were closed due to the inability to keep the road 
plowed. Throughout the year, the cost of keeping another road open and 
maintained would require a significant financial increase of staff and 
equipment, as well as extravagant use of scarce materials such as 
gravel and fill.
Quality v. Quantity of Lands Offered for Exchange
    The exchange lands being proposed would not provide habitat 
comparable to or able to compensate for loss or degradation of the 
Lagoons Complex. Indeed, no amount of exchange lands can compensate for 
the irreversible impacts a road would have on these globally 
significant and unique wildlife habitat values.
    State Townships: The two townships offered by the State 
(approximately 43,000 acres) do not include comparable wetlands 
habitat. The southernmost state township is entirely uplands, with some 
bear denning habitat, but virtually no value for waterfowl. The more 
northern township has some wetlands with viable caribou and brown bear 
habitat, but is of little value for the many species of waterfowl found 
in the lagoons and isthmus wetlands complex. The state townships also 
have no current development threat, and offer minimal conservation 
benefit. They are located entirely outside the watershed of the Izembek 
National Wildlife Refuge and will be costly to inventory and administer 
due to access limitations.
    King Cove Corporation lands: Corporation owned lands offered along 
the eastern shore of Cold Bay (relinquished ANILCA selections, 
approximately 5,430 acres, are primarily uplands with little to no 
value for caribou or important waterfowl species, such as Pacific 
Brant, Emperor geese and Threatened Steller's eiders.
    Lands offered in the Mortensen Lagoon parcel, approximately 10,800 
acres, include wetlands with some swan and shorebird habitat value, but 
this area does not attract the high level levels of use by key species 
such as Pacific brant, Emperor goose or the Threatened Steller's eider 
compared to the Lagoons Complex. The FWS 1997 King Cove Road Briefing 
Report indicates that the Mortensen Lagoon area is a ``medium use'' 
area for Canada goose and Northern pintail, whereas the lagoons and 
isthmus complex is a ``high-use'' area for the Threatened Steller's 
eider and virtually the entire world's population of Pacific brant and 
Emperor geese. Additionally, the Mortensen Lagoon parcel contains 
significantly less tidelands, especially important for shorebirds, and 
is inadequate compensation for the tremendous impact a road would have 
on the critically important Lagoon Complex. Further, a road already 
bisects these Corporation lands, and will continue to be used, which 
likely precludes wilderness qualification and diminishes further the 
conservation value of these lands.
    The ``bookend'' parcels at the mouth of Kinzarof Lagoon, about 
2,500 acres, contain high waterfowl habitat value, but currently have 
no development threat. As such, these lands offer limited compensation. 
These parcels are located within the zone of influence of road 
construction, operation and maintenance and therefore may sustain 
diminished usage and reduction in value.
    State Refuge Lands: The exchange proposal includes an offer to make 
Kinzarof Lagoon a State refuge. Although Kinzarof Lagoon is valuable 
from a conservation perspective historically Alaska has not made State 
Game Refuge management a priority. For example, Izembek State Game 
Refuge was established in 1972 and still has no management plan and 
virtually no state refuge personnel overseeing refuge activities. In 
state ownership, the future of Kinzarof Lagoon would remain in question 
and may sustain unavoidable negative impacts from road construction, 
operation and maintenance thereby limiting its benefit to Izembek 
refuge.
Legal Concerns
    As currently written, H.R. 2801 also raises a number of legal and 
policy concerns. More specifically, before Congress adopted ANILCA in 
1980, its committees and members spent hours debating the proper 
balance between access and conservation on the bill's conservation 
lands. The result was Title XI, the access and transportation title, 
which provides a process for authorizing the construction of 
transportation corridors through conservation lands like the Izembek 
Wilderness. That process requires the FWS to detail findings about the 
potential impacts of the road on the refuge that it would cross. 
Because the proposed road would bisect designated Wilderness, the 
process would also require presidential review and congressional 
approval of the proposed road corridor. These important protections 
designed by Congress to balance access with the need to protect 
designated Wilderness would be stripped under these bills.
    The bills would convey to the State fee title to the 206-acre road 
corridor through Wilderness, instead of merely an easement as the State 
originally requested. Conveying fee title to the State would not only 
allow road construction through the Wilderness, but opens the road 
corridor to possible future developments, such as pipelines. Although 
construction of a road under any circumstances would be bad news for 
the Izembek Wilderness, if the road proposal goes forward, the FWS 
would be better able to protect the wilderness area from excessive harm 
if an easement were conveyed to the State rather than full fee title to 
the road corridor. An easement would give the State the right to 
construct and maintain a road along the chosen route but would leave 
full ownership of the corridor under the management of the FWS.
    Equally problematic is that the legislation would not provide for 
appraisals or valuation of land. Under existing law, the federal 
government must undertake an appraisal before proceeding with a land 
exchange, in order to ensure that the exchange is based on equal value; 
an exchange that is not based on equal value may proceed only if the 
Secretary determines that the exchange is in the public interest. FLPMA 
Sec. 206; ANILCA Sec. 1302(h). Most of the lands proposed to be 
exchanged under S. 1680 and H.R. 2801 have never been formally 
appraised or valuated. If these bills become law, they likely never 
will be formally appraised or valuated, as Section 4(d) (1) waives any 
such requirement. Without an appraisal, neither the landowners nor the 
public can effectively evaluate the fairness and relative benefits of 
the proposed exchange.
    The bills provide (Sec. 4(c)(2)(B)) that support facilities for a 
road constructed under this subsection shall not be located on 
federally owned land in the Izembek NWR, but do not disclose what 
facilities will be needed or where they will be located. Such 
facilities could be substantial, and could potentially be located on 
State tide lands in the Kinzarof Lagoon or within lands to be conveyed 
to the Fish and Wildlife Service under the exchange agreement. Without 
treatment or specific parameters in the bills, these sites have no 
physical or environmental constraints and could be located in any 
number of sensitive areas, resulting in significant impacts to refuge 
values. If the road proposal moves forward it is imperative that the 
location, size and parameters of these sites be fully disclosed in the 
legislation and reasonable constraints invoked.
Other policy questions center on:
    Section 4(c) (3) (C) would deem the as-yet undetermined road route 
to be compatible with the purposes for which the Izembek National 
Wildlife Refuge was established. This language would circumvent the 
existing requirement that any activity proposed within a National 
Wildlife Refuge be approved only if it is found to be compatible with 
the purposes for which the refuge was established. See 16 U.S.C. 
Sec. 688dd. The compatibility review provides an important mechanism 
for the Fish and Wildlife Service to evaluate the impacts of proposed 
activity, such as construction and operation of a road, wildlife, and 
habitat resources of the refuge. By bypassing this requirement, the 
bills remove important protection of existing law from a Wilderness 
area in a refuge.
    Section 4(d)(2) would deem the use of existing roads and the 
construction of new roads on King Cove Corporation land located within 
the Izembek National Wildlife Refuge to access the proposed road to be 
consistent with ANCSA Sec. 22(g) and not to interfere with the purposes 
for which the refuge was established. ANCSA Sec. 22(g) applies the 
``compatibility'' requirement to lands within certain National Wildlife 
Refuges that are conveyed to Native corporations pursuant to ANCSA. By 
bypassing the compatibility requirement on these lands, the bills 
remove an important protection of existing law.
    Section 4(c)(3) provides for a multi-entity cooperative planning 
process for the proposed road across the Izembek Wilderness, and 
Section 4(c)(3)(D) provides that construction of the road along the 
route recommended by the Secretary pursuant to that process ``is 
authorized in accordance with this Act.'' This language could be used 
by road proponents to seek to avoid compliance with federal legal 
requirements--in addition to those that are explicitly waived--that 
usually govern construction of new roads.
    Section 4(c)(4) provides for the reconveyance of land by the 
Secretary to the State or the King Cove Corporation if a court enjoins 
use or construction of the road, or if the State or the King Cove 
Corporation chooses not to proceed with construction of the road. There 
is no parallel provision for the reconveyance of land by the State or 
the King Cove Corporation to the United States. Land within designated 
Wilderness of the Izembek National Wildlife Refuge should not be 
conveyed outside the refuge; but if it is conveyed and road 
construction does not go forward, the land should be returned to the 
United States.
    Section 4(g) provides that the Secretary must administer the land 
acquired pursuant to the land exchange ``subject to valid existing 
rights.'' Information about any valid existing rights must be disclosed 
and considered before the land exchange is approved; as such rights 
could subject the new Wilderness lands to incompatible access and other 
claims that may undermine their value as additions to the Izembek 
Wilderness.
    For all of these and other reasons we oppose the land exchange and 
proposed road from King Cove to Cold Bay through Izembek National 
Wildlife Refuge's lagoons complex and designated Wilderness. Thank you 
for this opportunity to bring these important concerns to the 
Committee.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 38772.001
                                 
    .epsThe Chairman. Thank you.
    The Committee will stand in recess for approximately 15 
minutes.
    [Recess.]
    Mr. Inslee [presiding]. We will reconvene the meeting.
    Thank you very much. I have assumed the chair from our 
great Chair, and I want to thank the witnesses for being here. 
I have a couple questions, if I may.
    Mr. Hall, I wanted to ask about your testimony about the 
NEPA analysis. Your written testimony says, ``The 
Administration could support passage of this legislation if it 
were amended to ensure a full NEPA analysis on the exchange.''
    For the purposes of your question, does a full NEPA 
analysis mean inclusion of the no action alternative, or do you 
contemplate that the road would be mandated by the legislation 
subject to consideration of alternatives such as location?
    Mr. Hall. Well, I think that really depends on how the bill 
is passed. If a bill is passed that says you will have a road 
then the alternatives would be on how to build the road, but if 
the legislation simply authorizes the construction of a road 
then we would do the full NEPA per NEPA guidelines that start 
with an election and go through the other alternatives.
    Mr. Inslee. I just want to make sure I understand the 
Administration's position on that.
    Would you support legislation that in effect mandated 
construction of the road and allowed a NEPA analysis only to 
alternatives such as location, or would you insist on at least 
evaluating a no action alternative no matter what?
    Would you encourage us to pass legislation that would allow 
a no action alternative as part of the NEPA process? I guess 
that is the way to ask the question.
    Mr. Hall. Well, in the negotiations with the Administration 
on what their position is, because they have not come out with 
a statement of Administration position other than this 
testimony, and we talked about NEPA. At least my understanding 
was we would look at NEPA as NEPA is mandated by its own law, 
which includes all alternatives.
    The discussions really evolved around making sure that 
there was a fair analysis of what we are gaining and what we 
might be losing, the impacts, the values gained and maybe the 
assets lost so that the public could see the full disclosure of 
what is going on there. That was the gist of my discussions 
with the Administration.
    Mr. Inslee. I appreciate that. I think I understand what 
you are saying. I think it is an important point.
    Some of today's testimony suggests that the refuge is a 
very difficult place to build a road--the topography, volcanic 
soils, some of the wetlands. I wanted to ask Mr. Mylius--I hope 
I have pronounced that name right--from the state.
    I just wondered if you could address the engineering 
feasibility and the cost of completing the construction from 
King Cove to Cold Bay and maybe just address some of the 
challenges for administering the road as far as maintenance, 
policing, accidents, melting tundra from global warming and the 
like.
    Mr. Mylius. Mr. Chairman, in terms of road costs there was 
an estimate done in 2003 that it would be a $23 million 
construction cost for the road. With current prices going up, 
it would be a little bit more than that.
    In terms of construction, I am not sure if this represents 
any more significant challenges than large parts of Alaska. A 
lot of Alaska is very wet. This area is not underlain by 
permafrost, so the global warming and melting permafrost would 
not be an issue down there.
    There has been some reconnaissance work done for possible 
routes, and they have identified a route that would be the 
least I guess probably wet and the least impact on the wetland, 
so it is feasible to build a road. It has been looked at.
    In terms of maintenance, the state already does road 
maintenance out of both King Cove and Cold Bay, so we have 
already got maintenance staff in those communities.
    Mr. Inslee. I just wonder if any of the other witnesses 
want to comment on any of those issues. We would welcome your 
comment.
    Mr. Raskin. Yes. Thank you very much. This is a difficult 
area as I understand it from the descriptions and the 
environmental impact statement. It is an area that is not very 
flat. There are a lot of big depressions and difficult soils 
and areas that would have to be filled a great deal.
    It would require a substantial amount of gravel, and gravel 
is not in abundant supply in these areas. It would require, 
therefore, a lot of maintenance, more so than a typical road, 
you know, that would be put on a hard bed. This is not a hard 
bed.
    So the challenges for building this road, as well as for 
preventing it from impacting the lagoons and so on, as Ms. 
Whittington-Evans alluded to, are I think substantially 
greater.
    I have lived in Alaska a long time. I have visited a lot of 
places. I have been to many refuges. I have been to Izembek and 
looked at the areas. This is not an easy place to build a road.
    Mr. Inslee. Go ahead.
    Mr. Mack. Mr. Chairman?
    Mr. Inslee. Yes?
    Mr. Mack. Stanley Mack. I was born and raised in King Cove. 
I have hunted and fished in the Izembek area all my life. I beg 
to differ on the road construction.
    There is gravel available. There are a network of roads 
throughout the refuge and into the wilderness that was built by 
the military in World War II. Those roads still exist with 
minimum maintenance, so to that degree I believe that 
everything for road construction is readily available.
    Thank you.
    Ms. Whittington-Evans. Thanks, Mr. Chair. I would just like 
to add that what we understand, from the $37.5 million that was 
appropriated under the King Cove Health and Safety Act, $26 
million of those were spent on the 17 mile road, of which 
approximately one-third is completely finished.
    We believe that continuing the road through the isthmus, 
through the wetlands of the isthmus, will be considerably more 
challenging than the terrain that they have experienced in most 
of that 17 mile road portion with the exception perhaps of the 
mountainous region with the unstable volcanic soils where right 
now the road does not connect because they haven't been able to 
build that section of it.
    It is an average of $1.7 or so, as I understand it, or $1.5 
million per mile, and I think that that would be increased 
somewhat, if not significantly, for the isthmus portion of the 
road.
    Mr. Inslee. Thank you.
    I would like to yield to the gentleman from Alaska, Mr. 
Young.
    Mr. Young. Thank you, Mr. Chairman. I looked over there and 
thought gee, Nick, you have grown in the last 15 minutes.
    I have a little bit of a problem. Mr. Raskin, are you an 
engineer?
    Mr. Raskin. Actually, I have had engineering classes.
    Mr. Young. Are you an engineer?
    Mr. Raskin. I do not practice in engineering.
    Mr. Young. OK. Nicole, are you an engineer?
    Ms. Whittington-Evans. No, I am not an engineer.
    Mr. Young. I want to ferret that out because we are talking 
about costs.
    This is the state's road. Is that correct, Mr. Mylius?
    Mr. Mylius. Yes.
    Mr. Young. It will be a state road?
    Mr. Mylius. Yes, this would be a state road.
    Mr. Young. And the state will build this road with the 
cost, and if they didn't think it was a worthwhile project the 
stat would not build it. Is that correct?
    Mr. Mylius. Correct.
    Mr. Young. So I want to make that perfectly clear.
    Mr. Raskin, are you a resident of Homer or of Arizona?
    Mr. Raskin. I am a resident of Homer.
    Mr. Young. You are? How come your phone numbers all are in 
Arizona?
    Mr. Raskin. That is because I just went down there to work 
on a home that----
    Mr. Young. Oh, we have a home in Arizona? That is 
interesting.
    Mr. Raskin. Yes, because it is so icy in the wintertime.
    Mr. Young. I understand that.
    Mr. Raskin. We go down there.
    Mr. Young. The reason I ask that is because if you had a 
residence in Homer, the road from Homer to Anchorage goes 
through what?
    Mr. Raskin. I am sorry?
    Mr. Young. The road from Homer to Anchorage goes through 
what?
    Mr. Raskin. Through what?
    Mr. Young. What does it go through?
    Mr. Raskin. It goes through the Kenai Refuge.
    Mr. Young. The Kenai Refuge. OK.
    Having said that, Mr. Mayor, and I also heard the testimony 
about how the hovercraft was working. I was in the room when 
that road was rejected, and the hovercraft and the clinic and 
the airport extension was to try to save lives because the 
roads were rejected by the Senate side and a couple senators.
    The community of King Cove, Mr. Chairman, had no input, but 
it was my decision at that time and Senator Stevens' that we 
were going to try to save lives. We didn't know whether that 
hovercraft would work. I want to make that clear.
    We did not think, even if we improved the clinic, that we 
could get a doctor to stay there. As far as improving the 
airport, I have flown out of the airport in 100 mile an hour 
crosswinds, which I will never do again, by the way, so I know 
the danger there I am going to say.
    The statement that the hovercraft works. Now, Mr. Mayor or 
any one of you who are involved, why doesn't the hovercraft 
work. If it does work, in what conditions?
    Mr. Mack. Congressman Young, thank you. The hovercraft, the 
best I could explain it, and this is one of the first 
hovercrafts of this size built in the United States. We had no 
idea what we were getting into in regard to the hovercraft. The 
best way to describe this hovercraft is like a hockey puck on 
an air hockey platform.
    As it floats around there you could blow it with your 
breath in a different direction, so the turbulence on this 
hovercraft or the turbulent weather that the hovercraft is 
going to encounter and has already encountered demonstrates 
that it is very unstable.
    The area in Cold Bay is so turbulent. I think I best 
describe it as where the storms are born, and it just is very 
unstable. That is the best I can describe it, Congressman.
    Mr. Young. Again, I have heard testimony here today that 
traffic could support the hovercraft with $700,000 a year. How 
many cars are in King Cove?
    Mr. Mack. When they are fully running I would say in the 
neighborhood of 200.
    Mr. Young. OK. Now, what do you charge for a car to go to 
Cold Bay?
    Mr. Mack. Oh, I would have to defer to my administrator.
    [Pause.]
    Mr. Mack. Roughly $150.
    Mr. Young. OK. So we would have to take 200 cars, every one 
of them to travel back and forth every day for 365 days to pay 
for the hovercraft.
    Now, why would anybody want to take a car to Cold Bay 
anyway unless they wanted to fly them out?
    Mr. Mack. That is the only reason they would want to go 
there.
    Mr. Young. So there is no market to sustain the cost of 
that hovercraft with Cold Bay?
    Mr. Mack. That is correct.
    Mr. Young. Now, it was also stated there were 16 medivacs 
by the hovercraft. We saw the film. How many were not able to 
be made by the hovercraft? We saw one on the film.
    Mr. Mack. There have been--well, let us see. Maybe I can 
defer to you, Della.
    Ms. Trumble. Congressman, technically since the hovercraft 
has been in operation, and just to step back a second we are 
thankful that we have it. It has helped and contributed more 
than what we had in the past. It just unfortunately isn't the 
answer.
    We have had 19 to 20 medivacs this past 10 months. You 
know, we almost average two a month. Technically all of them 
made it because of one thing. The contributing factor was that 
the weather was good and it allowed us. There was one occasion 
where it was iffy, and they technically pushed it to get over 
there. It took them two hours.
    Mr. Young. They took a chance is what you are saying?
    Ms. Trumble. They took a chance.
    Mr. Young. Just like the airplane, and we lost 11 lives on 
the airplane because we don't have a road.
    Ms. Trumble. Exactly.
    Mr. Young. My time is up, Mr. Chairman. I want to have a 
second round probably.
    Mr. Kildee [presiding]. Thank you, Mr. Young.
    Mr. Young. Every time I turn around. I mean, I did take a 
shower this morning. I can tell you that right now.
    Mr. Kildee. We all love you so much, Don. We just don't 
want to sit next to you.
    The gentleman from Utah?
    Mr. Bishop. Thank you. Mr. Young, why do you think I am 
sitting way down here?
    Let me ask a couple of questions. I apologize for not being 
here for the verbal testimony as well. First, Mr. Mylius from 
the Alaska Department of Natural Resources. Do state laws and 
regulations ensure that roads are going to be designed and 
constructed to minimize potential impacts in Alaska?
    Mr. Mylius. Mr. Chairman or Congressman, when the state 
builds, most of our roads are built with highway trust funds 
and they require environmental impact statements as part of 
their construction and so they address environmental impacts as 
part of their design and construction.
    Mr. Bishop. There are those who have said that none of the 
lands that the state exchanges are threatened, and therefore 
they have no real wilderness value.
    Do you want to comment on the value of the lands the state 
is willing to exchange?
    Mr. Mylius. Congressman, the State of Alaska owns over 100 
million acres of land, and a lot of those lands don't have 
immediate development prospects for them, but the state was 
given that land with the idea that some day a lot of those 
lands could be developed.
    When you look it over, a large part of Alaska doesn't have 
immediate development threat, including most of the wilderness 
land that is already designated. When Congress set aside those 
lands as wilderness in ANILCA in the Lands Act, that wasn't a 
criteria that they be threatened with development.
    Nonetheless, these specific lands have been looked at for 
oil and gas development in the past. The state actually 
included them in a recent oil and gas lease sale, so they do 
have some potential for development.
    Mr. Bishop. OK. Mayor, if I could just ask you, and once 
again I apologize for not having been here for the verbal 
testimony, but I am intrigued by the line in the background 
statement or the briefing statement about the number of fatal 
accidents. The King Cove Airport is located between mountains, 
adverse conditions, and fatal accidents or delays in 
transportation of some of the sick.
    You have been talking about that with the Ranking Member. 
How many fatal accidents have occurred? Can you give me some 
estimation of the number and the kinds of things we are talking 
about here as far as loss of life by the present situation?
    Mr. Mack. There has been recorded 11 of them, sir, in 
traffic.
    Mr. Bishop. Multiple accidents or single accidents?
    Mr. Mack. One multiple accident there on the approach to 
Cold Bay. Weather conditions were such, and it was in the 
night. This was several years ago. That quickened our desire 
for a connection between the two airports.
    Mr. Bishop. So the contention is a road would have 
alleviated that concern? It would not have happened?
    Mr. Mack. Yes, it would have.
    Mr. Bishop. So it is a matter of life that we are talking 
about?
    Mr. Mack. Yes, sir.
    Mr. Bishop. Thank you. I appreciate those answers.
    I yield back.
    Mr. Kildee. We will have a second round.
    Mr. Young. Mr. Chairman, I wasn't going to bring this up, 
but I think it is very frustrating when I see the type of 
propaganda that is put before the Congress.
    This is on the press table. That is a doctored picture. 
That is a doctored picture. That is a dishonest picture. That 
road does not even exist, and that mountain is there, but it is 
nowhere near this road.
    This is an attempt to make propaganda to take and convey 
the untruths about this road. In fact, I believe this letter 
was sent in to Evan Hirsche, President of the National Wildlife 
Refuge Association, and it explained all the inaccuracies. They 
never got a letter back.
    [NOTE: The picture referred to can be found on page 35.]
    Mr. Young. If anybody in the press wants to look at this 
letter, I think you ought to do it and ask groups why they put 
out this kind of nonsense. If you are honest and you have a 
legitimate point of view, you don't need to use propaganda. 
This is truly propaganda. I am just disappointed frankly. In 
fact, Mr. Chairman, it diminishes the credibility of witnesses 
who would use this type thing.
    If I am not mistaken, Mr. Hall, and this is not for you as 
far as this article goes, but in fact you are the one that is 
deciding and has decided that the 61,000 acres does have 
wildlife potential and it has in fact wilderness potential, and 
41,000 acres under this bill would be in fact, would it not, a 
wilderness?
    Mr. Hall. That is correct, sir.
    Mr. Young. And we would be giving up how many acres of 
wilderness?
    Mr. Hall. Two hundred and six.
    Mr. Young. Two hundred and six. And analyzing it, you 
decided that was what the right thing was to do?
    Mr. Hall. Yes, sir.
    Mr. Young. Not about the road. Just the exchange, the value 
for 200 acres for every acre that the Aleut Corporation and the 
King Cove was giving up. I believe it is 200 acres I believe 
for every acre they get back. Is that about right?
    Mr. Hall. It is a little over 200.
    Mr. Young. And there have been statements that it would 
disturb wildlife, brant geese, et cetera, et cetera, and your 
analyses of the land exchanged, it improves the habitat of 
waterfowl and wildlife?
    Mr. Hall. We haven't done that analysis yet. That is part 
of what we are talking about having an analysis
    There is an analysis discussed in the bill. The 
Administration would just like it to be identified as NEPA. 
That is the sort of thing that we believe and I believe that 
once the facts are out it will show in an honest, unbiased 
analysis that there is a real benefit, a net substantial gain 
for the American people, for the refuge system and for 
wilderness as a result of this trade.
    In order to be fair and recognize other viewpoints, we are 
saying let us do NEPA and let us have a full disclosure 
document that talks about it.
    Mr. Young. My good state man, the state agrees with that or 
you wouldn't be giving up that land?
    Mr. Mylius. Yes, Congressman Young. The state believes that 
the land we are giving up clearly has wilderness values. They 
are similar in the sense that both areas are valuable for 
caribou and brown bear.
    Mr. Young. Mr. Mayor or Madam Chairman, would you like to 
comment on anything before I excuse myself. Mr. Chairman?
    Mr. Mack. Thank you, Congressman Young. Yes. In regard to 
the isthmus and its relationship to the migratory birds, in our 
attachments we have a letter from the refuge manager in 1995 
demonstrating the impact on the Pacific black brant in the 
Izembek Refuge, and that is referring to the Izembek Lagoon. It 
also demonstrates the migratory pattern of the Pacific black 
brant that is in question in regard to endangered or threatened 
species.
    I sat on the Co-Management Council of the Alaska Migratory 
Birds, and we have tried to prohibit or tried to gather more 
information because of the fact that in our relationship with 
Mexico and with Russia we are having a difficult time trying to 
capture the exact numbers that are being taken in these areas.
    In our attachment the refuge manager, Greg Sekanik, writes 
and tells about the impact and what is happening in the Izembek 
Lagoon today. It has nothing to do with the roads that are 
there already. If there was a question about the traffic on the 
roads, it certainly would have been demonstrated there.
    There is a request to address the impacts on these 
waterfowls coming from the aircraft traffic over the area at 
this particular time and the boat traffic in the Izembek 
Lagoon.
    Mr. Young. Della?
    Ms. Trumble. Thank you, Congressman. I technically don't 
have anything to comment on except to say one thing that has 
been a concern and just kind of reinforces a little bit what 
you said in the beginning.
    We have lived in this region for thousands of years. We 
continue to do so. We want to protect whatever is in that 
refuge system probably more so than anybody in this United 
States because we subsist off of those lands. We will never do 
anything that is going to contribute to us not being able to.
    If anybody doesn't believe that and wants to really 
understand what it is like to live up there, don't come out and 
visit us for a day or two. Spend the year. Bring your family. 
You come out there and spend a year. If something happens, and 
God willing it doesn't, then you will know exactly what we go 
through and what we have for decades and continue to go through 
every day.
    Mr. Young. Mr. Chairman, I have one more question. I am out 
of time.
    Mr. Hall, where do you live?
    Mr. Hall. Well, now I live in Springfield, Virginia.
    Mr. Young. OK. I ask this question because I am being a 
little bit tongue in cheek, but we worry about the brant, and 
we should, you know. They are shooting them in Mexico and they 
are shooting them in Russia, and we are worried about the 
brant.
    I ask you. How many times have you driven by on a highway? 
Now, maybe these brant here are a little dumber. I don't know, 
but we have maybe not the brant we are talking about. We have a 
goose that lives right along the George Washington Parkway by 
the hundreds. I mean, cars go zoom, zoom, zoom. Not 200 cars, 
but thousands of cars. You see them every day. They come from 
Springfield.
    If anybody has ever been near any highway where there is 
grass year-round you have geese. They seem to wave at the cars. 
By the way, does anybody play golf around here? I mean, they 
own the golf course.
    The idea that this little nine-mile road now is going to 
destroy or deter or change the brants' habitat or pattern is 
just not understanding waterfowl.
    Mr. Hall. I think a more fair analysis, because what you 
are seeing when you are driving around the road are wintering 
waterfowl, and what we are talking about in Alaska is the 
production, the nesting and the breeding.
    Mr. Young. I beg to differ. That is where you are wrong, 
Mr. Hall.
    Most of these geese here winter here, and they have 
goslings here. If you haven't seen any goslings, you will see 
hundreds of goslings. They take care of the goslings, and the 
goslings grow up to be even more geese, and we have more geese 
than we know what to do with and a lot of other geese you know 
what, but go ahead.
    Mr. Hall. I think the fairness part is because you do have 
geese that overwinter and then oversummer as well and nest even 
in the lower 48, but I think a more fair analysis is to say in 
the prairie pothole country of the United States where a lot of 
nesting birds nest and in Canada, you know, there are roads 
through those areas, and I think that that is the kind of thing 
that in fairness let us talk about it.
    I am not sure that there is a refuge in the lower 48 that 
doesn't have roads on it really to get to almost any part of it 
that you want.
    Mr. Young. Mr. Chairman, along those lines, if I am not 
mistaken the Izembek is the smallest refuge we have in the 
State of Alaska. We have 47 million acres, is that correct, in 
the state?
    Mr. Hall. We have over 50 million.
    Mr. Young. Over 50 million acres of refuge in the State of 
Alaska.
    I got to thinking when someone told me that 300,000 acres 
of land. There is only one state that has a larger refuge, and 
that is the State of Louisiana. This is the largest refuge in 
the lower 48 other than one in Louisiana, yet it is considered 
a small refuge. I just want to sort of put that together.
    Mr. Chairman, I don't have any other questions.
    Mr. Kildee. Thank you very much, Mr. Young.
    Mr. Young. I will let the Chair conclude now. Thank God you 
are back. I looked over and Inslee was there. I said my God, 
Nick grew up.
    The Chairman [presiding]. Let me ask one final question. It 
is for all of the witnesses on the panel.
    What are the potential risks of building a road through 
this refuge, and why do you consider these to be acceptable or 
unacceptable? Who wants to take the first crack?
    Male Voice. Start right down the line.
    The Chairman. All right.
    Mr. Hall. Are you starting with me? In looking at the 
risks, there are always risks involved in any kind of 
construction, especially near water, and this road pathway 
certainly skirts the lagoon. There are risks with the potential 
for erosion.
    There are risks--and I think the risks are always you put a 
calculation on them as how high the risk is--about traffic 
interfaced with caribou or even bears crossing across. There 
are risks associated with anything that you do in construction.
    Our responsibility in the Fish and Wildlife Service is to 
really look to see what are the levels of those risks and how 
do they compare with the rest of the package, as it were, `and 
the benefits that are gained against the risks of possible 
losses.
    In my opinion, as I said earlier when you were out of the 
room, Mr. Chairman, I believe going through NEPA and having a 
full disclosure and an unbiased analysis in my opinion I think 
it will show a very clear net benefit to the American people 
and to the refuge system and to the wilderness program to have 
this kind of exchange on this very high bar that has been set 
of 200 plus to one.
    But I think that is why we in the Administration are asking 
for NEPA to be done so the people that disagree with that can 
see the facts.
    The Chairman. Thank you.
    Mr. Mylius?
    Mr. Mylius. Mr. Chairman, I think Mr. Hall summed up the 
risks pretty well. From the state's perspective, additional 
risk could be that the cost for building the road could be 
higher than we estimate that it is.
    I think a lot of the environmental risks can be minimized. 
The road location isn't nailed down. You know, partly because 
of construction costs, as well as environmental reasons, the 
goal would be to minimize the impact on waterfowl habitat. The 
proposed corridor that is shown on maps largely does try to 
stay as far away as it can from the key waterfowl areas, which 
are Izembek Lagoon and Martinson's Lagoon, the actual wetland 
areas.
    I think you also have to consider the risks of not building 
the road, which is the health and safety concerns; that there 
could be lives lost because people can't be medically 
evacuated, so I think you have to look at both the risks of 
proceeding, as well as the risk of not proceeding.
    The Chairman. Mayor Mack?
    Mr. Mack. Thank you, Mr. Chairman. Yes, I agree with The 
Honorable Dale Hall and his analysis, and I too agree that a 
good NEPA process and an EPA or environment impact statement is 
done to demonstrate exactly the impacts you are going to have 
and design this road.
    The benefits to me just for the safety and reliable access 
to that runway that connects King Cove to the outside world is 
a tremendous benefit and a health concern.
    For the migration of wildlife, I have lived in Cold Bay for 
15 years building a power plant and operating it over there 
after the first one burned in 1985. I watched the caribou run 
back and forth across the runway. In fact, the Department of 
Transportation had to scare them off before the airplanes came 
in. You know, every Sunday I would take my family out. We would 
watch the caribou run back and forth across the roads. Traffic 
doesn't bother the aircraft.
    I have hunted out there for wildlife or birds, and I have 
watched them fly over the top of the roads. Many of the sports 
hunters come out there. That is the only impact there is on 
wildlife and birds.
    Thank you.
    The Chairman. Thank you.
    Ms. Trumble?
    Ms. Trumble. Thank you, Mr. Chair. I strongly believe and 
agree on behalf of the community of King Cove that the risk is 
that this road doesn't get built and we will lose more people. 
That is something that we live with and are concerned about 
every day.
    As far as any risks associated, I agree with Mr. Hall and 
Mr. Mylius and Mayor Stanley that we do go through a good 
process, that we make sure that we don't do anything to harm 
the wildlife because, like I say, we have protected them and 
will continue to protect them for as long as we are out there 
and will live out there.
    Thank you.
    The Chairman. Mr. Raskin?
    Mr. Raskin. Thank you, Mr. Chairman. I would like to 
address my comments to the risk to health and safety. In fact, 
the risk to health and safety is increased by constructing and 
attempting to utilize this road.
    Right now if we look historically, there has been some 
inaccuracy in what has been presented. Of those 11 deaths that 
occurred since 1979 through 1990, only one crash involved a 
medical evacuation, and that crash occurred near the so-called 
all-weather Cold Bay Airport, which is not an all-weather 
airport.
    The other crash, the other major crash, was on a flight 
from Kodiak to King Cove with sportsmen with a pilot who had 
never flown into the area and should never have been flying in 
that area, so we have only one fatal crash involving a medivac 
by air, and it occurred near the so-called Cold Bay all-weather 
airport.
    Now, when you compare that to the risk of this road the 
problem is that you have a hovercraft now that can operate not 
in just 30 mile an hour winds, but in excess of 45 mile an hour 
winds and in excess of 10 foot seas.
    I have discussed this with the experts. This has been 
demonstrated both in Alaska and in the North Sea out of 
Scotland. This is an extremely durable, reliable craft that can 
endure all of these conditions. So the hovercraft has proven 
itself and, as Ms. Trumble said, they have had 19 successful or 
20 successful medivacs with the hovercraft. It has not failed.
    Traveling that road--I live in Alaska. I know what road 
conditions are like, and I live in a much milder area than King 
Cove and Cold Bay, and yet our roads are icy. We have accidents 
all the time. That is why in response to Congressman Young's 
question, now that my wife and I are in our seventies we can't 
deal with that ice very easily where we live.
    King Cove and Cold Bay are much more difficult, and that 
road would go through extremely difficult terrain. The entire 
road would comprise 33 miles, and to travel 33 miles under 
winter conditions with ice, wind and so on is going to increase 
the health risk and encourage people to undertake health risks 
that they should not take. We are very sympathetic to the 
concerns of the people in King Cove, and we feel that the road 
is only going to cause them more health risks rather than less.
    Furthermore, it took $26 million to complete only one-third 
of the 17 mile road, and we are talking about a total of 33 
miles. It will cost at least three times that to complete the 
proposed 33 mile road.
    So all of these are risks--economic, health safety--which 
argue against that road, and we are always happy to try to help 
those people that live out there to work on the problem because 
we are concerned about their issues out there, but this is not 
the solution.
    The solution, if they need one extra safety valve, it is a 
Coast Guard helicopter that would be available to conduct 
medical emergency evacuations on those rare days like the one 
percent of the time when the winds are too great for the 
hovercraft to operate. That is the solution, not this road.
    The Chairman. Ms. Whittington-Evans?
    Ms. Whittington-Evans. Thank you, Mr. Chair. I think there 
are a variety of risks associated with building this road.
    One of these areas I have already talked a little bit about 
earlier today, which is the financial risk of building the road 
to the Federal coffers. We have spent $26 million on a road, a 
17 mile road, that is now one-third completed.
    The average cost per mile that I mentioned earlier today, 
actually the jury is not out yet. We don't know how much the 
average cost per mile of the 17 mile road is going to be 
because two-thirds of it still needs to be finished, and we 
really don't have a sense for that.
    I believe that building the road through the wetlands area 
of the isthmus is going to take more money because of many 
culverts, bridges, stream crossings, pools of water that will 
need to be diverted around, the undulations within the tundra 
that will affect all kinds of things--soils, gravel, the amount 
of gravel that is needed, the type of road that would need to 
be built in order to deter snow from accumulating in these 
valleys, if you will, within the tundra area.
    I think that we are looking at an extremely expensive 
project, and it is an expensive project that potentially those 
funds could be used to better serve other individuals and many 
more individuals such as the health care issue that Mr. Raskin 
brought up earlier today. We have many people in the United 
States who don't have access to good health care.
    I say this knowing that the residents of King Cove do have 
alternatives, and they have more alternatives right now than 
the other communities that depend on the Cold Bay Airport to 
get to Anchorage. They are in a pretty good situation 
considering the remote area that they live in. So I think 
financial costs are a significant risk and one that Members of 
Congress should be considering in making this decision.
    I think human safety issues, as Mr. Raskin brought up, are 
also considerable. We will see vehicles stranded. Roads have a 
way of creating accidents. You know, this is going to be a very 
remote road. There is going to be a lot of blowing snow, poor 
visibility in the winter months and particularly cars will end 
up going off the road.
    Some of them may be stranded, people trying to get 
somewhere perhaps consider leaving their cars when the wind 
child is extraordinary out there. The mountainous terrain could 
see rock slides and other types of land slides, potential 
avalanches. Again, the worst case scenario is the road will 
create collisions and ultimately deaths as a result of putting 
it in, so I don't see the road being the best alternative for 
human health and safety.
    I think there are risks to subsistence resources, and the 
draft and final EIS that was put together by the Army Corps of 
Engineers discusses these. Again, this is why the Association 
of Village Council Presidents, which represents 56 native 
villages in western Alaska, opposed this in the late 1990s and 
are opposing it again today. They recognize that there will be 
potential impact to Pacific black brant and other migratory 
waterfowl that they depend on for their subsistence culture and 
resources.
    I went through a whole list of environmental impacts that 
would occur as a result of building this road. Without going 
through all those again, I will just highlight some. We will 
see the destruction of habitat to tundra and wetlands, 
accelerated erosion and stream sedimentation that will decrease 
water quality. We will see behavioral changes in animals.
    We will see increased access and consumptive use as a 
result of this, reducing wildlife population numbers over time. 
We will see increased highway vehicle and ORV access, which 
will without a doubt impact the area in a variety of different 
ways.
    One of the things that hasn't been brought up yet is the 
whole concept of putting a cable barrier along the road to try 
to stop people from taking their ORVs off of the road and into 
the wetland or the wilderness area of the isthmus. I think the 
cable barrier itself presents a lot of problems both for 
wildlife migration, as well as risk to health and human safety.
    In the Palmer area of Alaska where I live we have witnessed 
a person being decapitated by a cable when they were driving 
too quickly on their ORV and did not see the cable. I don't 
think that that is out of the realm of possibility that people 
will be driving quickly under certain conditions on this road 
on their ORVs.
    There will be an overall increase of human presence; 
decreased productivity of habitat; continued wind and water 
erosion; animal behavior changes, as I already mentioned; 
increased likelihood of collisions; increased vehicle 
accidents.
    Overall right now the caribou population in the area, the 
Southern Alaska Peninsula herd, has suffered some significant 
reductions, and I believe the hunting season has been called 
off for that population. They use the isthmus area as a 
significant migration corridor. It is the only way that they 
get from their wintering grounds to their calving grounds.
    Sometimes they overwinter on the isthmus, and this road 
will without a doubt affect some of their migration patterns 
and could potentially disturb them on a regular basis during 
some of the harshest environmental conditions during wintertime 
that they need to live through.
    Brown bears and other carnivores will be affected by this. 
Water quality, you know, affected stream areas and spawning 
areas could reduce the number of salmon in the area. The road 
itself with additional human access will affect brown bears, 
change behavior patterns for them.
    Overall the human access into brown bear population areas 
generally results in increased mortality from things like 
hunting and defense of life and property, so I think overall 
there are many, many types of risks associated with this road, 
and we would encourage the Congress to not agree to passing 
this legislation and reject the idea of this road.
    Thank you.
    The Chairman. Thank you. I think you listed some responses.
    I am going to recognize Mr. Young first, and then I will go 
to the panel.
    Mr. Young. Mr. Chairman, thank you.
    I apologize to my King Cove residents. I have a gentleman 
who lives in Homer who has access through a refuge on a road to 
Anchorage hospitals or to the Homer hospital. I have another 
witness that lives in Palmer that has access to the hospital in 
Palmer--brand new, by the way--and to Anchorage.
    We are talking about nine miles of road like it is the end 
of the earth. They did not, the people of King Cove, ask to be 
put near a wilderness area. They were never consulted. There 
was never a hearing in King Cove. There was no comment from the 
people in King Cove.
    Now we have basically outside organizations and those that 
do not live there nor understand the potential threat to their 
children, their mothers and fathers and their lives themselves. 
There would not be this problem if in fact that area hadn't 
been declared a wilderness.
    For what reason I do not know, a huge airfield in the area. 
This is expansion, not the original Izembek. A huge expansion 
with roads in it and declared a wilderness area. They actually 
have isolated a community from the rest of the world.
    And you talk about the hovercraft. The hovercraft is an old 
hovercraft, Mr. Chairman. You say it is new. It is old, and the 
people that use it say it doesn't work. The state will tell you 
it costs $700,000, so we ought to go to the state and have the 
state subsidize it. They are not going to do it because there 
are only a few people out there.
    Every life that is lost, and remember someone said well, 
there were only 10 lives and one was an accident and the pilot 
shouldn't have been flying, yada-yada-yada, but they didn't 
count those that didn't get off the ground and those that were 
sick and lost their lives. That wasn't counted.
    I think it is unfair, Mr. Chairman, to not do this when the 
state agrees with it, the Aleut Corporation agrees with it, the 
Borough agrees with it, the Fish and Wildlife Department says 
it is the best exchange they got pound for pound. To have 
interest groups that have no contact with the area say we can't 
do this because it might hurt wildlife is wrong.
    Now, I lived the pipeline battle, and they said the caribou 
couldn't and wouldn't cross the pipeline. We spent over $50 
million building walkways for the caribou over the pipeline. 
The caribou never use that pipeline. Never have They go under 
the pipeline.
    Now, I will tell you what does use the pipeline and those 
walkways is the brown bear or the grizzly bear. They get up 
there and run down the pipelines like a highway.
    So if we start deciding how animals and birds are going to 
react there is little science to prove in fact that man itself 
is the cause for the deterioration or destruction of wildlife 
unless it is actually the taking of wildlife.
    Now, we just heard someone say there is a tremendous amount 
of traffic that will be increased. There is no highway to Homer 
from King Cove. There is no highway to Anchorage. There will be 
no one who goes down there because that is a long way down 
there. There will maybe be 100 cars maximum that will use that 
road. Maybe.
    I think the mayor and the president will probably say this 
road will be used for different reasons, but the primary reason 
will be for the evacuation of our loved ones when they are ill.
    I think it behooves this Congress to act in a positive way 
instead of people and organizations that have no contact with 
them and have to live there. Like Della said, if you go out and 
live a year and go through this then you have a right to say 
something. Until that time, let them live their lives as they 
should.
    Mr. Chairman, thank you for having this hearing. I have 
said enough. I am not filibustering. It is time to get out of 
here.
    The Chairman. Thank you.
    OK. I will let you have the final word, Ms. Trumble.
    Ms. Trumble. Thank you. I was hoping that was the case.
    In all due respect, Nicole and David, you know, we have 
asked time and time again when we are going through this 
process come talk to us. Work with us because we are willing to 
work with everybody.
    When we look at these statements it is really hurtful and 
discouraging to see what is happening here and at the level 
that it does. We live our there. You don't. When you talk about 
driving from Homer to Anchorage for medical services on an icy 
road you are driving on pavement. We are driving on a gravel 
road with snow and ice, and that is worse conditions because of 
the gravel.
    We have a resolution from AFN. When we talk about the 
hovercraft you said there is only one-third of that road 
complete. That is wrong. This is a 17 mile road. Fourteen of 
those miles are complete.
    I had tried to make so many--I have this list. This issue, 
yes, is about health and safety, but it is also about the peace 
of mind. When you looked at that video and saw that airplane 
landing at the airstrip in King Cove--you left Cold Bay. You 
made it out of there. The weather was fine. That is what you 
put up with. Ten minutes later is what we are talking about 
because we live in a mountainous area.
    This is about the freedom and just the peace of mind to go 
from one community to the next. Cold Bay is the only way that 
we can get out to the outside world.
    We thank you very much, Mr. Chair, for your time and the 
Committee.
    The Chairman. The Chair wishes to thank the entire panel 
and to remind them the record will be open for an additional 10 
days following today's hearing.
    I will have additional questions to submit for the record. 
Other Members may have additional questions as well. You will 
have those 10 days to submit responses and any additional 
material you desire to submit.
    Any further comments from my colleagues?
    [No response.]
    The Chairman. If not, the Committee stands adjourned.
    [Whereupon, at 4:22 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
